<html>
<title> - IRAQ: A CROSSROADS OF U.S. POLICY</title>
<body><pre>[Senate Hearing 116-200]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 116-200

                   IRAQ: A CROSSROADS OF U.S. POLICY

=======================================================================

                                HEARING



                               BEFORE THE



                       SUBCOMMITTEE ON NEAR EAST,
                       SOUTH ASIA, CENTRAL ASIA,
                          AND COUNTERTERRORISM



                                 OF THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED SIXTEENTH CONGRESS



                             FIRST SESSION



                               __________

                              JULY 16, 2019
                               __________



       Printed for the use of the Committee on Foreign Relations



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via the World Wide Web:
                         http://www.govinfo.gov




                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-519 PDF                 WASHINGTON : 2020 







                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

                  MITT ROMNEY, Utah, Chairman        
TED CRUZ, Texas                      CHRISTOPHER MURPHY, Connecticut
LINDSEY GRAHAM, South Carolina       BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  TIM KAINE, Virginia





                              (ii)        

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Romney, Hon. Mitt, U.S. Senator from Utah........................     1

Murphy, Hon. Christopher, U.S. Senator from Connecticut..........     2

Polaschik, Hon. Joan, Acting Principal Deputy Assistant 
  Secretary, Bureau of Near Eastern Affairs, U.S. Department of 
  State, Washington, DC..........................................     4
    Prepared statement...........................................     6

Mulroy, Michael P., Deputy Assistant Secretary of Defense for the 
  Middle East, U.S. Department of Defense, Washington, DC........     8
    Prepared statement...........................................    10

              Additional Material Submitted for the Record

Responses of Hon. Joan Polaschik to Questions Submitted by 
  Senator Robert Menendez........................................    24

Responses of Michael P. Mulroy to Questions Submitted by Senator 
  Robert Menendez................................................    30

Responses of Hon. Joan Polaschik to Questions Submitted by 
  Senator Benjamin L. Cardin.....................................    31


                             (iii)        

 
                   IRAQ: A CROSSROADS OF U.S. POLICY

                              ----------                              


                         TUESDAY, JULY 16, 2019

                                U.S. Senate
             Subcommittee on Near East, South Asia,
                Central Asia, and Counterterrorism,
                             Committee on Foreign Relations
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Mitt Romney, 
chairman of the subcommittee, presiding.
    Present: Senators Romney, Gardner, Murphy, Shaheen, and 
Kaine.

            OPENING STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. The hearing of the Senate Foreign Relations 
Subcommittee on the Near East, South Asia, Central Asia, and 
Counterterrorism will come to order.
    Today we are holding the first hearing in this Congress of 
the Near East Subcommittee. It is significant that the topic we 
are considering is Iraq. Not only is Iraq a place of enormous 
strategic interest for the U.S., it is a country where 4,565 
United States service members have given their lives. We 
remember and honor these individuals and the families who 
survive them. Iraqi Freedom came at a great cost.
    Several months ago, Ranking Member Murphy and I traveled to 
Iraq to meet with U.S. officials there and with Iraqi 
Government leaders. Iraq has proven for nearly two decades to 
be the place where vital U.S. interests and the Middle East 
intersect. This is the focus of our hearing today.
    In 2014, ISIS seized control of roughly a third of Iraqi 
territory, terrorized the Iraqi people with a level of 
brutality unexpected even in a country that had lived under the 
regime of Saddam Hussein. While ISIS is no longer a territorial 
caliphate, Iraq still faces major security and economic 
challenges. Among those challenges are how to build an 
independent Iraq, how to sustain a vibrant economy, whether and 
how to assimilate returning ISIS fighters, and how to counter 
excessive Iranian influence.
    The question for us is how can the U.S. best support Iraq's 
efforts to achieve a secure and prosperous future and become a 
stabilizing force in the region. We note that Iraq has 
significant natural resources, but it is failing to exploit 
them. It flares its natural gas because of insufficient 
infrastructure. The annual value of flared gas is in the tens 
of billions of dollars. Even so, infrastructure investments 
have been negotiated for years but never executed. Just last 
month, a 30-year $53 billion project with Exxon Mobil was 
placed on hold.
    Recently the Iraqi Government lifted travel restrictions in 
Baghdad's Green Zone, but the security situation is not 
resolved. ISIS may no longer have territorial control but is 
reorganizing in underground cells. The Iraqi Government faces 
enormous challenges to prevent these extremists from 
terrorizing and radicalizing the people.
    Of course, the ISIS challenge is not just from terrorist 
cells. There are currently tens of thousands of former ISIS 
fighters and their families in camps in Iraq and Syria. The 
government is committed to bringing home as many as 30,000 
Iraqis who went to Syria as part of the Islamic State. 
Determining how to handle such a staggering number of 
radicalized men, women, and even children is a daunting 
challenge.
    Another concern is the ongoing presence of militias that 
were formed to counter ISIS. These militias have not been 
easily assimilated into Iraqi security apparatus. Some of them 
remain under Iranian direction.
    And finally and perhaps most significantly, Iraq needs a 
strategy to address its relationship with Iran. The Iraqi 
leaders we met with underscored that they do not want their 
nation to become a vassal state of anyone. I note that recent 
Iranian attacks on ships and a U.S. drone have elevated our 
concern for the safety of American troops there, as well as our 
diplomatic personnel. The question then becomes how can we help 
Iraq foster closer ties with other countries in the region to 
balance Iranian influence.
    I am grateful to have two expert witnesses from the 
administration with us to discuss these issues. I hope today 
that you will be able to provide an overview not only of the 
current situation on the ground in the context of these 
challenges, but also to provide your insights and 
recommendations about how the U.S. can support Iraq in its 
journey to become a secure, economically successful, and 
independent state.
    And with that, I will turn things over to Senator Murphy 
for his comments.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    I was grateful to join you in visiting the region, grateful 
for our hearing today.
    As you have noted, more than a year and a half since the 
Iraqi Government declared victory over ISIS, a number of 
challenges still remain. The first is obvious. ISIS is not 
fully defeated. It has lost control over territory. That is a 
very important step, but the group has gone underground to 
regroup. And they still periodically mount insurgency-style 
attacks in the country. The threat they pose in Iraq remains.
    Of course, there cannot be any enduring victory over ISIS 
in Iraq without political stability. The Iraqi Government will 
need to rebuild decimated cities and help millions of civilians 
that are displaced. The Iraqi Government will need to resolve 
territorial and resource disputes with the Kurdistan regional 
government. They need to tackle corruption, improve service 
delivery, diversify the economy, and integrate militia groups.
    If this sounds like a familiar prescription for success, it 
is because it is. The political mission inside Iraq is the one 
that America has, unfortunately, failed at over and over. The 
military successes--they come a little bit easier.
    We spent a lot of money in Iraq, averaging about $1.2 
billion annually in recent years to train and equip Iraqi 
Security Forces and billions more in economic assistance, 
humanitarian aid, and lines of credit.
    But looking back on the trends of U.S. assistance to Iraq, 
there is a pattern: huge spikes in military and non-military 
assistance levels in response to outbreaks of violence in the 
country, and then dramatic drop-offs once victory is declared, 
only to see this cycle repeat. There has to be a better way to 
play the long game here, to signal a longer-term, multiyear 
level of commitment in ways that do not require us to 
dramatically ramp up and ramp down funding in response to 
crises.
    When we were in Iraq in April, I heard from many Iraqis who 
told me that they worry that the United States is just going to 
move on and forget about them. Listen, I opposed the Iraq war, 
but I also understand that we have a moral obligation as a 
country to help fix a nation that we played a leading role in 
breaking. So we need to reassure the Iraqis that we are 
invested in their long-term stability and success.
    Unfortunately, it seems some of the moves by this 
administration are signaling the opposite. Today the bulk of 
our assistance to Iraq is military assistance, and because it 
is parceled out on a year-to-year basis, it seems that many of 
our representatives in Baghdad are spending their time just 
trying to buy as much stuff as quickly as possible for the 
Iraqis. One of the folks we talked to there said that they 
would rather have $100 million over 10 years than have to spend 
$100 million in 1 year. The balance of our assistance, military 
to civilian, seems badly askew.
    Last September, we also closed our consulate in Basra and 
withdrew our diplomats. Over the weekend, new reports emerged 
that the diplomatic drawdown from our embassy in Baghdad has 
left less then 15 State Department officials working directly 
on our core diplomatic functions. From an outside perspective, 
it is hard to reconcile the withdrawal of our diplomats now 
when we were able to maintain a diplomatic presence in Baghdad 
and Basra through even the most dangerous years in Iraq in the 
mid-2000s. How can we hope to have any influence in Iraq 
without sufficient diplomatic personnel in place? How can we 
accomplish our goals if we have no one in the field?
    And lastly, the administration's backward policy towards 
Iran is making our job much, much harder. I hope to ask you 
some questions about the designation of the IRGC as a terrorist 
organization. We have put our troops at risk of attack, and we 
have cut off much of our ability to talk to any of the Iraqi 
militia groups that have relationships with Tehran. The cost of 
this new, hastily-planned hard line with Iran is going to make 
our job of political reconciliation a lot harder in Iraq.
    I am grateful for the hearing. There is a lot to discuss, 
and I look forward to hearing from both of our witnesses.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you, Senator Murphy.
    Let me note that I made an error in my comments. I said the 
annual value of flared gas is in the tens of billions of 
dollars. That is not accurate. It is in the single billions of 
dollars.
    We have one panel here today with two witnesses.
    Ambassador Joan Polaschik is here. She is the Acting Deputy 
Assistant Secretary of State for Near Eastern Affairs, is a 
career Foreign Service officer, and has focused her career on 
the Middle East and North Africa. Most recently she served as 
the U.S. Ambassador to the People's Republic of Algeria. Her 
previous positions included serving as the Director of the 
State Department's Office of Egypt and Levant Affairs and 
Director of the Office of Israel and Palestinian Affairs, 
Deputy Chief of Mission at the U.S. embassy in Tripoli, Libya, 
and Regional Refugee Coordinator based at the U.S. embassy in 
Amman, Jordan.
    We also have Michael or Mick P. Mulroy, Deputy Assistant 
Secretary of Defense for the Middle East. Mr. Mulroy is a 
retired paramilitary operations officer from the Central 
Intelligence Agency. His previous assignments include Chief of 
Department in the Special Activities Center, Chief of Station 
of an overseas country, Chief of Expeditionary Team in a war 
zone country, Chief of Base in a war zone country, and Deputy 
Chief of Branch in the Special Activities Division. He served 
as a U.S. Marine reservist who served in both Iraq and 
Afghanistan.
    We will now turn to our first witness, Ambassador 
Polaschik. Thank you for your service and your willingness to 
testify here today. Your full statement will be included in the 
record, without objection. So if you could please keep your 
remarks to no more than 5 minutes or so, we would appreciate 
that so that we can engage with some questions. Ambassador.

   STATEMENT OF HON. JOAN POLASCHIK, ACTING PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Polaschik. Chairman Romney, Ranking Member 
Murphy, members of the committee, I am honored to appear before 
you today and agree that my full testimony should be submitted 
for the record. Thank you for that.
    I look forward to discussing the challenges Iraq continues 
to face and the many ways the United States can help Iraq as it 
seeks stability and reintegrates into the region.
    Our relationship with Iraq remains vital for U.S. national 
security interests. Bolstering Iraq as a sovereign, stable, 
united, and democratic partner continues to be our principal 
objective. We must remain engaged to ensure that Iraq can fend 
off internal and external threats, including from Iran, to its 
sovereignty and territorial integrity.
    U.S. security assistance remains integral to Iraq's 
stability. Iraq relies on our assistance to reinforce the 
primacy of the Iraqi Security Forces, including the Kurdish 
Peshmerga.
    The United States remains committed to the enduring defeat 
of ISIS and eliminating the conditions that would allow for its 
resurgence. We operate in Iraq at the invitation of the Iraqi 
Government, and together with two dozen other countries, we 
help Iraq ensure that our gains against ISIS endure. Iraq's 
growing ability to act in partnership with the coalition to 
defeat our shared national security threats is one of the truly 
remarkable developments since 2014.
    Despite the gains they have made, Iraq's armed forces are 
stretched by competing demands and need continued assistance to 
eradicate ISIS remnants, secure Iraq's borders, and become a 
source of regional stability. The U.S.-led coalition must 
continue to build the capacity of Iraq's legitimate and 
professional security forces.
    Iraq's stability will hinge upon its government's ability 
to assert control over militia groups. We support the 
Government of Iraq's efforts to bring all armed groups fully 
under state control. On July 1, Prime Minister Abd al-Mahdi 
issued a decree to institutionalize the Popular Mobilization 
Forces, or PMF. Disciplined elements of the PMF were 
instrumental in the territorial defeat of ISIS. Some rogue PMF 
elements, however, take instructions from Iran. Their 
activities are particularly destabilizing in the liberated 
areas where they prioritize smuggling and extortion over 
fighting ISIS. These same groups surveil our diplomatic 
facilities and Iraqi military bases where the coalition is 
training Iraqi Security Forces. Some militia leaders plot 
against U.S. interests and plan operations that could kill 
Americans, coalition partners, and Iraqis. Undisciplined PMF 
groups also continue to conduct indirect fire attacks as they 
did against our consulate in Basra last year. The prime 
minister's decree, therefore, is an important step for shoring 
up Iraq's sovereignty and security. Implementation of the 
decree will be key, and we will engage with the Government of 
Iraq on its plans for enforcement.
    Eliminating Iraqi dependence on Iranian energy imports will 
strengthen the Iraqi economy and deprive Iran of resources to 
exert its malign influence. Iraq should remain focused on 
advancing projects to install new power generation facilities, 
develop electricity delivery infrastructure, and promote 
domestic production of natural gas. These projects make 
economic sense, contribute to Iraq's full autonomy from Iran, 
and support our policy of denying the Iranian regime revenue.
    In order for Iraq to reach its economic potential, the 
Government of Iraq must also tackle corruption and excessive 
red tape. The United States continues to support an initiative 
from the U.N.'s Conference on Trade and Development which will 
increase transparency for the Iraqi public and U.S. investors.
    It is in our interest to support Iraq's democratic 
development, but significant challenges remain to the building 
of durable institutions that protect the rule of law, secure 
human rights, and promote free and fair elections. Supporting 
pluralism and protecting the rights of minorities is integral 
to the administration's effort to defeat ISIS, counter violent 
extremism, and promote religious freedom. In the 5 years since 
ISIS launched its campaign of genocide against Yazidis, 
Christians, and other religious minorities, we have programmed 
over $340 million to help the recovery of Iraq's persecuted 
religious communities.
    Finally, a strong Kurdistan regional government within a 
unified and federal Iraq is essential to Iraq's long-term 
stability. We are proud of our longstanding partnership with 
Iraq's Kurdish people. Following the Kurds' 2017 independence 
referendum, the administration has focused on helping Baghdad 
and the Iraqi Kurdistan region mend relations. The Government 
of Iraq and the KRG have made progress and we will continue to 
work with both sides to resolve outstanding tensions.
    Chairman Romney, Ranking Member Murphy, thank you for the 
opportunity to testify. I look forward to answering your 
questions.
    [The prepared statement of Ambassador Polaschik follows:]

               Prepared Statement of Hon. Joan Polaschik

    Chairman Romney, Ranking Member Murphy, Members of the Committee: I 
am honored to appear before you today to discuss the challenges Iraq 
continues to face from Iran, ISIS, and armed groups not under the 
control of the Iraqi government, including some that are backed by 
Iran. These actors pose a threat to the stability of Iraq and to Iraq's 
future and I look forward to discussing the many ways the United States 
and the U.S.-led Coalition can help Iraq as they continue to seek 
stability and re-integrate into the region.
    Our relationship with Iraq remains vital for U.S. national security 
interests and regional security. Bolstering Iraq as a sovereign, 
stable, united, and democratic partner of the United States continues 
to be our principal objective. We must remain engaged to ensure that 
Iraq can fend off the internal and external threats, including threats 
from Iran, to its sovereignty and its territorial integrity.
    To help offset the impact of Iran's harmful meddling in Iraq, we 
must continue to build on our successful diplomatic efforts to 
reintegrate Iraq into the region, particularly among Arab states. 
Constructive relations between Iraq and its neighbors are a powerful 
counterweight to Iran's malign influence. Under the leadership of Prime 
Minister Adil Abd al-Mahdi, President Barham Salih, and Foreign 
Minister Mohammed Ali al-Hakim, Iraq has strengthened ties across the 
region. Since taking office, they have welcomed King Abdullah II of 
Jordan and with him inaugurated a joint industrial zone along the 
Jordan-Iraq border; they have received an unprecedented visit from the 
Emir of Kuwait; and they have conducted significant state visits to 
Saudi Arabia and the United Arab Emirates, among other key milestones.
    U.S. security assistance remains integral to Iraq's security and 
stability. Iraq relies on our assistance to reinforce the primacy of 
the Iraqi Security Forces, strengthen their capabilities, and deepen 
their professionalism. In support of our partners in the Iraqi Security 
Forces, the U.S.-led Global Coalition to defeat ISIS helped Iraq regain 
control over all its territory and train-and-equip more than 212,000 
members of the Iraqi Security Forces, including the Kurdish Peshmerga. 
The Government of Iraq's December 2018 announcement of the liberation 
of all Iraqi territory from ISIS control was a great moment for Iraq 
and all Iraqis. Together with the U.S.-led Coalition and our Iraqi 
partners, we must remain vigilant to prevent the return of ISIS or the 
emergence of other terrorist groups.
    The United States remains committed to the enduring defeat of ISIS 
and eliminating the conditions that would allow for its resurgence. The 
work of the U.S.-led Global Coalition to Defeat ISIS is not over yet. 
The United States and our partners continue to operate in Iraq at the 
invitation of the Iraqi government, with two dozen other countries 
helping Iraq ensure that our gains against ISIS endure. The Iraqi 
Security Forces realize that they still need the Coalition's assistance 
in conducting targeted counter-terrorism operations and combatting a 
reemerging ISIS insurgency. Iraq's growing ability to act in 
partnership with the Coalition to defeat our shared national security 
threats is one of the truly remarkable developments since 2014. For 
example, Iraq was instrumental in advancing the Coalition's military 
campaign in Syria, providing valuable artillery support and airstrikes 
for the Syrian Democratic Forces' offensive just over the border.
    Despite the gains they have made with our support, Iraq's armed 
forces are stretched by competing demands and need continued assistance 
and training to eradicate ISIS remnants, secure Iraq's borders, and 
become a source of regional stability. Consequently, the U.S.-led 
Coalition must continue to build the capacity of Iraq's legitimate and 
professional security forces.
    Iraq's stability will hinge upon its government's ability to assert 
control over increasingly powerful militia groups. We support the 
Government of Iraq's efforts to bring all armed groups fully under 
state control. On July 1, Prime Minister Adil Abd al-Mahdi issued a 
decree to institutionalize the Popular Mobilization Forces. Disciplined 
elements of the Popular Mobilization Forces were instrumental in the 
territorial defeat of ISIS and we recognize the critical role they 
played in that campaign. Some rogue elements, however, take 
instructions from Iran rather than the Iraqi central government. Their 
activities are particularly destabilizing in the liberated areas, where 
they appear to prioritize smuggling and extortion for personal gain 
over fighting ISIS. These same groups surveil our diplomatic facilities 
as well as Iraqi military bases where the Coalition is training the 
Iraqi Security Forces. We know that militia leaders continue to plot 
against U.S. interests and plan operations that could be used to kill 
Americans, other Coalition partners, and even Iraqis that work closely 
with us. Undisciplined Popular Mobilization Forces (PMF) groups also 
continue to conduct nuisance indirect fire attacks, as they did against 
our Consulate in Basrah last year. The Prime Minister's decree is an 
important step towards shoring up Iraq's sovereignty and security. 
Implementation of the decree will be key, and we will engage with the 
Government of Iraq on its plans for enforcement.
    Eliminating Iraqi dependence on Iranian energy imports will 
strengthen the Iraqi economy and deprive Iran of resources to exert its 
malign influence. A country as wealthy in natural resources as Iraq 
should be able to produce all of its own electricity. Iraq, however, 
imports a significant amount of electricity and natural gas from Iran. 
While we recognize there is no quick fix to eliminate Iraq's energy 
imports from Iran, we support Iraq's efforts to expand its own energy 
independence over time. These efforts include increasing domestic gas 
capture and electricity generation capacity as well as enhancing energy 
cooperation with Iraq's Gulf neighbors and Jordan. Of course, it will 
take years for Iraq to realize full energy independence. Iraq, should 
remain focused on advancing projects to install new power generation 
facilities, develop electricity delivery infrastructure, and promote 
domestic production of natural gas.
    These projects not only make economic sense, they contribute to 
Iraq's national interest of full autonomy from Iran, and simultaneously 
support our policy of denying the Iranian regime revenue.
    In order for Iraq to reach its economic potential, the Government 
of Iraq must tackle corruption and the problem of excessive red tape. 
To that end, the United States continues to support an initiative from 
the U.N.'s Conference on Trade and Development, which is streamlining 
some of Iraq's bureaucratic processes, thereby increasing transparency 
both for the Iraqi public and for U.S. investors.
    Lack of essential services and high unemployment, especially among 
youth, are major drivers of Iraq's instability. The best solution is to 
foster a sustainable Iraqi private sector as an outlet for the 800,000 
Iraqis who reach working age every year. The government cannot be the 
sole source of employment for a country where 60 percent of Iraq's 
population is under the age of 25. Iraq's current and future stability 
depends on finding work for this disproportionately large youth 
segment.
    It is in our interest to support Iraq's democratic development, but 
significant challenges remain to the building of durable institutions 
that will protect the rule of law, secure human rights for all its 
citizens, and promote free and fair elections. Iraqis are demanding 
better governance and ultimately their voices must be heard. 
Unfortunately, last year's electoral turnout was the lowest since 2005. 
In spite of all of the turmoil of the past 15 years, however, Iraq's 
core democratic institutions have survived. The administration will 
continue to support free and fair elections while encouraging all 
Iraqis to vote.
    In particular, supporting pluralism and protecting the rights of 
minorities is integral to the administration's effort to defeat ISIS, 
counter violent extremism, and promote religious freedom around the 
world. In a little more than 2 weeks, it will be 5 years since ISIS 
launched its campaign of genocide against Yezidis, Christians, and 
other religious minorities. In response, we have programmed over $340 
million since fiscal year 2017 to help the recovery of Iraq's 
persecuted religious communities. Our support includes life-saving 
humanitarian assistance, rehabilitating critical infrastructure, 
clearing explosive remnants of war, psychosocial and legal services, 
funding justice and accountability efforts, and help for local 
businesses. Yet, hundreds of thousands of Yezidi, Christian and other 
religious minorities, remain blocked from returning home by these 
noncompliant militias, representing an existential threat to Iraq's 
religious mosaic. We continue to press the Government of Iraq to take 
immediate steps to transition security in Sinjar and Nineveh Plain away 
from these militias to formal state bodies and help these traumatized 
communities return home and restore their lives within Iraq.
    The administration believes that a strong Kurdistan Regional 
Government (KRG) within a unified and federal Iraq is essential to 
Iraq's long-term stability and to the enduring defeat of ISIS. We are 
proud of our longstanding and historic partnership with Iraq's Kurdish 
people.
    Following the Kurds' 2017 independence referendum, the 
administration has focused on helping leaders in Baghdad and in the 
Iraqi Kurdistan Region (IKR) mend relations, and since the appointment 
of Prime Minister Abd al-Mahdi, the Government of Iraq and the KRG have 
made strides toward this. We will continue to work with Baghdad and 
Erbil to encourage their efforts to resolve outstanding sources of 
tension. We will also continue to press the KRG to implement badly-
needed reforms. For example, the KRG must put Peshmerga security forces 
under the direct control of the KRG rather than political parties. In 
addition, we encourage the KRG and the Government of Iraq to restore 
joint security mechanisms which will increase security and 
counterterrorism cooperation and eliminate security gaps in seams 
between KRG and Government of Iraq-controlled areas.
    Chairman Romney, Ranking Member Murphy, as you know, Mission Iraq 
operates in a critical threat environment. On May 14, the Department 
approved Embassy Baghdad's request to go on Ordered Departure. The 
decision was based on the current threat situation against U.S. 
personnel and facilities. We recognize the critical importance of 
advancing U.S. interests in Iraq through our diplomatic presence; 
however the President and Secretary have been clear that the safety and 
security of our all Americans is the administration's top priority.
    Thank you for the opportunity to testify and I look forward to 
answering your questions.

    Senator Romney. Thank you, Ambassador.
    Mr. Mulroy.

 STATEMENT OF MICHAEL P. MULROY, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR THE MIDDLE EAST, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Mulroy. Thank you, sir. Chairman Romney, Ranking Member 
Murphy, members of the committee, it is my pleasure and 
privilege to speak to you today.
    The U.S.-Iraq security partnership is of vital importance. 
Any disengaging from Iraq would risk an ISIS resurgence. It 
would cede the field to Iran and destabilize the region. U.S. 
and coalition forces are operating at the invitation of the 
Iraqi Government, anchored in the Strategic Framework Agreement 
signed by our countries more than 10 years ago.
    The best way to honor U.S., coalition, and Iraqi sacrifices 
is to bolster Iraqi Security Forces to defend their sovereignty 
against internal and external threats.
    The fight against ISIS is not over, and the road to 
recovery will be long. 5 years ago, ISIS controlled a territory 
the size of West Virginia. The group seized major cities, 
attracted terrorist fighters from across the globe, and 
generated over $1 million in income every day. It also claimed 
responsibility for numerous global attacks and its violent 
propaganda casts a shadow across the world.
    When the Government of Iraq requested support to defeat 
ISIS, the United States answered the call. We mobilized a 
global coalition which now stands at 80 members. The combined 
joint task force Operation Inherent Resolve includes the United 
States and 15 other nations. It brought immense fire power 
through thousands of airstrikes and combat-experienced side-by-
side advisors. I have been one of those advisors in the past, 
and I can tell you that nothing gives you more confidence than 
having the United States Air Force above you and a tactical air 
controller beside you.
    I would also like to highlight Iraq's Counter Terrorism 
Service. They rank among the region's most capable, and they 
serve as a testament to our capacity-building efforts.
    Our priority now is to ensure that the investments of blood 
and sweat in the D-ISIS fight outlive the warfighting of the 
last 5 years. Our by, with, and through approach continues to 
benefit both countries with a relatively limited U.S. 
footprint, down from 150,000 in 2008 to just over 5,000 today.
    The defeat of ISIS, however, is not a foregone conclusion. 
We see ISIS building clandestine networks across Iraq and 
Syria, working to undermine the Iraqi Security Forces and the 
Syrian Democratic Forces and to create conditions they need to 
seize territory in the future.
    At the Department of Defense, we also recognize that good 
governance and economic opportunity are needed to translate 
battlefield gains into a lasting peace. U.S. diplomats are the 
main effort in this endeavor, and at the Department of Defense, 
we proudly support them.
    Critics of our military presence often claim we have 
ulterior motives. We do not. We are in Iraq to defeat ISIS and 
build Iraq's capacity. The more capable their security 
institutions are, the more resilient they will be in the face 
of terrorists and malign activities bent on exploitation.
    Iran is the foremost of these malign actors. Iran-backed 
militias have consistently flouted Baghdad and turned to crime 
for self-enrichment. We see Iran using this playbook throughout 
the region. They hide behind their proxies and use them to 
fight only for Iranian interests. Our primary concern is the 
extent to which these noncompliant militias, more loyal to 
Tehran than Baghdad, undermine the prime minister's authority, 
prey on ordinary Iraqis, and destabilize the fragile 
communities recently liberated by ISIS.
    It is in Iraq's national security interest to unburden 
itself from Iran's exploitation. We are encouraged by the prime 
minister's July 1st decree to bring all militias under formal 
Iraqi control.
    Another high priority concern is Baghdad-Erbil relations. 
We are encouraging the Government of Iraq and the Kurdistan 
Regional Government to work through their political 
differences, coordinate security in northern Iraq, and prevent 
an ISIS resurgence.
    There is also growing risk that ISIS will exploit their 
captured fighters in prisons in Iraq and their family members 
residing in IDP camps. This situation amounts to a ticking time 
bomb, given the risk of producing a new generation of 
extremists. It is ISIS 2.0 if the international community does 
not address it.
    Chairman Romney, Ranking Member Murphy, only with a long-
term security partnership can Iraq prevent the territorial 
resurgence of ISIS that would threaten the United States, Iraq, 
and the world. If sufficiently resourced for the long game, the 
Department of Defense's efforts will afford diplomats the space 
to help Iraq overcome its challenges. Over time, we will 
further economize our footprint, normalize our security 
cooperation, and sustain an increasingly mature partnership 
with Iraq.
    I look forward to discussing how we best advance our 
interests with you. Thank you very much.
    [The prepared statement of Mr. Mulroy follows:]

                Prepared Statement of Michael P. Mulroy

    Chairman Romney, Ranking Member Murphy, Members of the Committee: 
It is my pleasure to speak to you today as the Deputy Assistant 
Secretary of Defense for the Middle East. I look forward to discussing 
how we can best advance U.S. interests in Iraq.
    The U.S.-Iraq security partnership is of vital importance. Our 
principal objective is to ensure the enduring defeat of ISIS. U.S. and 
Coalition forces are operating in Iraq at the express invitation of the 
Iraqi government to help Iraqis secure Iraq. When I was last in Baghdad 
in March, every Iraqi I met with underscored the indispensability of 
our security partnership. U.S., Coalition, and Iraqi forces fought 
shoulder to shoulder to defeat ISIS's so-called ``caliphate.'' The best 
way to honor those shared sacrifices is to bolster Iraq's security 
forces to prevent an ISIS resurgence and defend its sovereignty against 
internal and external threats. U.S. national security interests and 
regional stability hinge on a secure, sovereign Iraq.
    At the Department of Defense (DoD), we recognize that the U.S. 
military effort cannot alone deliver the desired results in Iraq. We 
see our toolkit as nested within a whole-of-government approach. U.S. 
commitment to diplomatic and economic action is required to ensure 
Iraq's long-term stability and security.
    Supporting Iraq in providing good governance and economic 
opportunity can translate battlefield gains into lasting peace. U.S. 
diplomats represent the vanguard in this endeavor, and we proudly 
support them.
    There is a fundamental premise that shapes much of our thinking on 
Iraq: Prematurely disengaging would compromise U.S. national security, 
leave Iraq exposed to other foreign influence, and destabilize the 
region.
    The fight against ISIS is not over, and the road to recovery will 
be long.
    Five years ago, ISIS controlled approximately 21,000 square miles 
of Iraqi territory. That is nearly the size of West Virginia. More than 
4 million people in Iraq lived under ISIS's oppressive rule. The group 
fielded a battlefield force capable of seizing major cities, attracted 
foreign terrorist fighters from more than 100 countries to Iraq and 
Syria, and generated at least $1 million a day in income. It claimed 
responsibility for a steady drumbeat of terrorist attacks outside of 
Iraq and Syria, from coordinated mass-casualty attacks, such as in 
Paris in November 2015, to those conducted by lone actors claiming 
inspiration from the group.
    Despite the liberation of ISIS-held territory in Iraq and Syria, 
ISIS-linked attacks continue abroad, including in Sri Lanka in April 
2019.
    Ruthless and cruel, ISIS's attempts to establish a caliphate in 
Iraq and Syria were marked by mass executions and public beheadings. On 
Iraqi soil, ISIS committed acts of genocide, desecrated holy sites, and 
nearly destroyed the Iraqi economy. The resulting refugee crisis from 
Iraq and neighboring Syria rippled across Europe. The group's 
weaponization of violent propaganda cast a shadow across the world.
    When the Government of Iraq requested U.S. support to defeat ISIS 
in 2014, the United States readily answered. We mobilized a Global 
Coalition to Defeat ISIS, which now stands at 80 members, including 
many with which we work side by side in Iraq. Our State Department 
colleagues have seen success in fundraising from the Global Coalition, 
particularly to support humanitarian and stabilization activities, and 
DoD has received contributions from partners to support counter-ISIS 
efforts directly. DoD also continues to work with these allies and 
partners to clear areas liberated from ISIS, train partner forces and 
provide technical assistance, conduct targeted CT operations to address 
continuing threats, and support stabilization efforts. Moreover, the 
United Nations Assistance Mission, U.N. Investigative Team for 
Accountability of Da'esh, NATO Mission Iraq, and EU Advisory Mission 
also represent crucial political and political-military efforts.
    The Combined Joint Task Force--Operation Inherent Resolve (CJTF-
OIR), which includes the United States and 15 other nations, brought to 
bear immense firepower against ISIS through thousands of airstrikes and 
the expertise of thousands of experienced U.S. and Coalition advisors 
building the capacity of Iraq's soldiers. CJTF-OIR currently helps 
train and equip 28 Iraqi brigades composed of thousands of soldiers. 
U.S. and Coalition forces have trained and equipped more than 212,000 
members of the Iraqi Security Forces (ISF), including our stalwart 
Kurdish Peshmerga partners in the north. Iraq's Counter Terrorism 
Service (CTS) ranks among the region's most capable and serves as a 
testament to the capacity-building enterprise and the importance of 
sustaining our support.
    The CTS, of course, cannot accomplish this mission alone. The Iraqi 
government has to coordinate the Ministries of Defense, Interior, and 
Justice, as well as its intelligence services, to disrupt ISIS networks 
effectively and deny them sanctuary. This requires the capability to 
detect terrorist activity, analyze facilitation and support networks, 
and disrupt activity before ISIS can carry out attacks.
    In December 2017, the Iraqi government declared all its territory 
liberated from ISIS control. It was a proud moment not just for Iraqis 
but for everyone around the world reeling from the group's terror.
    Our priority now is to ensure that U.S. and Coalition investments 
in the D--ISIS fight outlive the warfighting of the last 5 years. With 
a relatively light U.S. footprint, efforts to train and equip Iraq's 
security forces continue to reap dividends and prove the effectiveness 
of our ``by, with, and through'' approach. In 2008, the United States 
had more than 150,000 U.S. military forces in Iraq at an expense of 
nearly $150 billion in Overseas Contingency Operations (OCO) funds; 
today, there are approximately 5,200 U.S. military forces stationed in 
Iraq, funded with less than $15 billion in OCO funding.
    The ISIS threat in Iraq persists, and the group's enduring defeat 
in Iraq and Syria is not a foregone conclusion. We see ISIS building 
clandestine networks across Iraq and Syria, working to undermine the 
ISF and Syrian Democratic Forces and to create the conditions they need 
to seize territory in the future. Despite Iraq's growing capability, 
the Iraqis require additional U.S. and Coalition support to conduct 
effective counterterrorism and wide-area security operations necessary 
to keep ISIS at bay. We will continue to empower Iraq's legitimate and 
professional security forces to protect its sovereignty and prevent an 
ISIS resurgence.
    We are resolute in our commitment to Iraq's security and 
prosperity, but critics of our military presence often insinuate vague 
ulterior motives. The premise of our capacity-building initiative is to 
help Iraqis secure Iraq. The more capable Iraq's security institutions 
are, the more resilient Iraq will be in the face of terrorists and 
malign regional actors bent on coercion and exploitation.
    Iran is foremost among those malign actors. Iran's cynical 
interference undermines Iraqi interests and jeopardizes Iraqi 
stability. Iraq's Popular Mobilization Forces (PMF) have come to embody 
this challenge, although the problem set is far from black and white. 
Disciplined PMF elements, we recognize, fought bravely against ISIS and 
earned public respect. But in recent years, Iran-backed, semi-
autonomous militias have consistently flouted the Government of Iraq 
and turned to local criminality for self-enrichment. We see Iran using 
this playbook throughout the region; they hide behind proxies and use 
them to fight Tehran's fight. Our primary concern is the extent to 
which noncompliant militias, more loyal to Tehran than Baghdad, 
undermine the Iraqi Prime Minister's legitimate authority, prey on 
ordinary Iraqis, and destabilize the fragile communities recently 
liberated from ISIS control.
    It is in Iraq's own interest to unburden itself from Iranian 
exploitation. Iraqi sovereignty depends on it, and no one craves that 
independence more than Iraqis. The prospect of coercive militias 
preventing local communities from recovering from the trauma of ISIS 
risks sparking further violent extremism and insurgency. DoD is 
committed to supporting State Department-led engagements with the Iraqi 
government on this issue. We are encouraged by the Prime Minister's 
July 1 decree bringing all militias under formal government control.
    At the end of the day, the best way to counter Iran's malign 
influence in Iraq is to continue supporting the Iraqis and delivering 
visible good for the Iraqi people. No other country can match the 
world-class security assistance we provide, let alone our ability to 
mobilize international diplomatic and financial resources to support 
Iraq's long-term prosperity.
    Another high priority for DoD concerns Baghdad-Erbil relations. The 
seams separating Kurdish and federal Iraqi security forces in northern 
Iraq's so-called disputed territories are susceptible to ISIS 
resurgence. As is the case with the CTS and the Iraqi Army, the 
Peshmerga are trusted U.S. partners in the fight against terrorism. It 
is crucial that the Government of Iraq and Kurdistan Regional 
Government work through their political differences and coordinate 
security for those areas. Otherwise, ISIS will surely exploit security 
vacuums and gather steam.
    There is also the growing risk that ISIS--notoriously adept at 
building clandestine networks--will exploit not only the populations of 
captured ISIS fighters now in prison in Iraq but also their family 
members, who may reside in local communities or in internally displaced 
person camps. At present, it has been reported that tens of thousands 
of Iraqis could soon return from Syria, the vast majority of them women 
and children, many possibly linked to ISIS fighters and who likely 
still subscribe to the terrorist ideology that helped give rise to 
ISIS. It has also been reported that some 45,000 children born in ISIS-
controlled territory in Iraq remain in limbo because of their lack of 
recognized birth records.. The exploitation of Iraqis by ISIS, and the 
marginalization of ISIS victims leads many observers to deem the 
problem a ``ticking time bomb,'' given the risk of producing a new 
generation of violent extremists if there is not a reintegration 
process and if they are not treated humanely.
    Chairman Romney, Ranking Member Murphy, only with a long-term 
security partnership can Iraq prevent ISIS' from territorial resurgence 
that would threaten the U.S. homeland, Iraq, the region, and the world. 
The Defense Department's continued work in the security sector will 
afford diplomats the political space to help Iraq resolve its systemic 
challenges. Over time we will incrementally economize our footprint, 
normalize our security cooperation, and sustain an increasingly mature 
partnership with Iraqi security institutions.
    Thank you for your time, and I look forward to your questions.

    Senator Romney. Thank you, Mr. Mulroy.
    Let me begin by offering several questions, and hopefully I 
can hear from both of you on these.
    First of all, one of the things that we heard in our travel 
was from the leadership of the country which, as you know, 
represents leaders from Kurdistan, as well as Sunni and Shia 
leaders, with the president, the prime minister, and the 
speaker of the house. And they made it a very high priority in 
their communication with us to communicate that they have no 
interest in becoming a puppet state of Iran and that they 
believe that at least in the public press--and perhaps I am 
projecting on them my own reading of the public press--a sense 
that Iraq has fallen under the sway of Iran and will 
increasingly do their bidding. They, instead, said no, our 
interest is not becoming the puppet of any nation, but is 
instead to become an independent and strong, stable entity.
    Is that an accurate assessment of what you believe is 
really the intent of the leadership in Iraq, or is that just 
what they hope to be able to sell to traveling Americans?
    Ambassador Polaschik. Senator, thank you very much for that 
question.
    I concur. I mean, I believe that that is an accurate 
portrayal of the genuine Iraqi leadership view on this issue. 
Iraq's goal is to become a sovereign, independent, unified, 
democratic state, and that is certainly the goal of the United 
States' policy as well. When you look at the horrors of what 
has happened in the last few years in Iraq, the ravages of the 
institutions both from the era of Saddam Hussein and then in 
the difficult fight against ISIS, the Iraqi authorities have a 
real desire to rebuild institutions and ensure that they have 
the capacity to withstand any threats, any hostile actions from 
any of their neighbors.
    Senator Romney. Mr. Mulroy.
    Mr. Mulroy. Yes, sir. So they said essentially the exact 
same thing to me in my trip in March. And I would point out 
that all three of those leaders you mentioned have longstanding 
relationships with U.S. senior leaders for decades, and they do 
talk very bluntly.
    I would say that the July 1st proclamation by the prime 
minister is a very good step to bring them under the control of 
the Iraqi Security Forces and away from political affiliations. 
It is important to note that all PMF fought against ISIS. Some 
of them are very well thought of by the Iraqi people. Others 
are almost wholly controlled by the Iranians and not only do 
not work for the best interests of the Iraqi people, but they 
have essentially turned to criminality to fund themselves even 
further. And they have become less and less favored by the 
Iraqi people. It is important, I think, that we do everything 
we can to help facilitate the Government of Iraq bringing in 
the good and the disciplined PMF under the authority of the 
Iraqi military and disband the remainder.
    Senator Romney. One of the things we heard from the leaders 
there was a recognition that they share a very large border 
with Iran, that Iran has substantial interests in extending 
their influences throughout Iraq, that Iran is investing 
substantially in enterprises of various kinds to strengthen 
those ties, and they wonder why are other nations not doing the 
same.
    Given the obvious conflict geopolitically between Iran and 
Saudi Arabia, I would have anticipated that Saudi Arabia would 
have been a very active participant in Iraq as well, that it 
would have been countering Iran's influence there by its own 
investments, by its own personnel, cultural exchanges, and so 
forth. But that was not what was recounted by Iraq's leaders.
    Is there a reason that Saudi Arabia is not more involved 
and other Arab nations are not more involved with Iraq? And are 
there ways to encourage their greater participation there, as 
well as more U.S. participation? Clearly, the Exxon Mobil 
investment would have been a major connection between our 
nations. But are there ways we have of encouraging Saudi Arabia 
and others to become more involved with the Iraqi economy?
    Ambassador Polaschik. Those are all great questions, Mr. 
Chairman.
    I would note that the prime minister's first trip outside 
of Iraq was to Cairo, not to Tehran. And this was a really 
important step because he went there to meet with heads of 
state from Egypt and Jordan to further the Iraqi Government's 
goal of further reintegration with their Arab neighbors. Iran 
and Iraq have a shared border, a shared history, a shared 
culture. A lot of infrastructure is connected. So those are 
tough things to undo. But I think the fact that the prime 
minister's very first trip was to the Arab world rather than to 
Tehran shows that he is very committed to strengthening those 
ties.
    We are working very hard to support the Iraqi Government's 
goal of becoming more sovereign, more independent. Energy 
independence, as you highlighted in your remarks, is a very key 
part of that. In addition to the various U.S. projects that we 
are promoting, we are also looking at ways that Iraq could hook 
its infrastructure further into the GCC countries or even into 
Jordan. So these are very interesting ideas for Iraq to pivot 
west rather than east.
    The business climate in Iraq is challenging, and I think it 
is a lot easier for countries with less high standards than the 
United States, countries that do not have strong anti-
corruption laws to do business. But that said, we are working 
very closely with the Iraqi Government to try to improve the 
business climate there. As I mentioned in my opening remarks, 
UNCTAD has an important project that works to improve the 
business environment. We have been very supportive in working 
with the U.S. Chamber of Commerce and other business 
delegations, other business groups to bring American businesses 
to Iraq to establish the relationships, to get to know the 
environment there. Deputy Secretary Sullivan, for example, led 
our largest-ever trade delegation to Iraq, and we continue to 
do that.
    So it is a work in progress of supporting Iraq's goal to 
reorient itself away from dependence on Iran in an economic 
sense to opening to the rest of the region.
    Senator Romney. Thank you. I will let Mr. Mulroy respond 
briefly, if you will, but in particular, why is Saudi Arabia 
not more involved there, and can we encourage that?
    Mr. Mulroy. Sir, to the point of your question, you know, 
with the tyranny of geography when it comes to Iran, they do 
share a 900-mile border with Iraq, and they have $12 billion in 
trade. And they have extensive, permanent family ties back and 
forth.
    For the U.S., we provide a lot of things that they do not. 
We have provided the top-notch security assistance that 
actually is to the benefit of the government of Iraq. We also, 
of course, have international leadership when it comes to 
stabilization and economic development.
    Specifically to Saudi Arabia, we under defense diplomacy, 
so to speak, support the State Department in its efforts to get 
Saudi Arabia more involved, and I think they are getting more 
involved. I also think they are getting more involved in some 
of the key components of that, which includes bringing some of 
the disenfranchised parts of Iraq like the Sunni Arab tribes 
into the future of Iraq. They have a unique perspective on that 
and capability to do that, and they have been involved with us 
in developing that tribal engagement program that we think is 
so important so we do not do perhaps the same mistakes of the 
past where we have just excluded the Sunnis.
    I would also point out the fact that Jordan is becoming 
more involved economically with our encouragement with Iraq, 
and I think that is very important because at the end of the 
day, the key component of stabilization is economic development 
that lasts. And I think coming from the Department of Defense 
person, that is the key to further normalizing our relationship 
and getting to a place where we are not so dependent on U.S. 
military support.
    Senator Romney. Thank you for your responses to my 
questions.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Again, thank you both for your service and for being here 
today.
    Mr. Mulroy, first I wanted to talk to you a little bit 
about the efficacy of our security assistance. The United 
States spent about $20 billion on the Iraqi military between 
2003 and 2011. Of course, then faced with a marching ISIS in 
2014, an army of a quarter million just seemed to melt away. 
Since 2014, we have spent another $5 billion. And so the 
logical question is what are we doing differently this time 
around to ensure that the same outcome does not repeat itself.
    But I mentioned in my opening statement another concern, 
which is that when we were there, one of our top commanders 
talked to us about the difficulty of getting large amounts of 
short-term money out the door. We appropriate on an annual 
basis. We have given significant amounts of security 
assistance, and it worries me that it seems that many of our 
top military people there are spending lots of time spinning 
their wheels just trying get as much money out the door as 
quickly as possible because they do not know whether it will be 
there the next year, leading one of these individuals to say to 
us we would rather have $100 million over 10 years than $100 
million in 1 year so that we could engage in long-term 
projects.
    So my question is, what are we doing differently this time? 
What are the top line things we are doing differently? And is 
there a danger about not having a longer-term commitment here 
so that we can do longer-term military and security investments 
rather than just speeding money out the door?
    Mr. Mulroy. Yes, sir. So I would point out that in 2008, 
when we had 120,000 troops there, we were spending $150 billion 
a year. Now in 2019, we are spending $15 billion. For me, it 
still sounds like a lot of money because it is. But it is 
important to see that we have a trend in the right direction 
when it comes to expenditures of taxpayer money.
    I would say one other difference, when we saw the collapse 
of the Iraqi military in 2014 to when we saw how they performed 
more recently 2017, 2018, 2019. One of the things they had--and 
that is why I highlighted it in my opening--is the enabling 
component of the U.S. military. It is a game changer when you 
have air support conducted by the most effective air force in 
the world. And we have advisors that can actually assist them 
on the ground and give them the confidence that they will be 
there in the height of the battle. I really do think that, in 
my estimation, is the game changer.
    When it comes to the specifics of the spending, as you 
requested, I think I have heard that a lot when it comes to 
government spending everywhere, that there is a requirement to 
spend everything at the end of a particular fiscal year and 
that oftentimes people spend--and I think that is a legitimate 
issue that you raise, which also includes in a place like Iraq. 
From my perspective, everything we are trying to do now is move 
more to the economy of forces, which I have already highlighted 
we are, but also to a normalization.
    So we have established an SDO/DATT, and we are moving 
toward a traditional country team model with the SDO/DATT 
answering to the ambassador, now Ambassador Tueller, and we 
will start standardizing and modernizing and normalizing our 
spending as we do that. We are doing that with the Kurdish 
Peshmerga right now, and we obviously are going to be doing 
that when it comes to the rest of the Iraqi Government.
    Senator Murphy. We can solve that problem partially. 
Congress can do a multiyear authorization. It is still an 
authorization subject to appropriation, but we can at least 
provide some of that certainty. And I would encourage our 
committee to look into that.
    Ambassador Polaschik, I wanted you to address something 
else I brought up in my opening statement, which is a report 
over the weekend, a really concerning report, suggesting that 
the embassy in Baghdad is down to 15 functional political 
staffers. Help me understand the conundrum I laid out in my 
opening remarks, which is how do we maintain our political 
mission inside Baghdad if we have pulled so many of our 
personnel out? Can you confirm that we are down to 15 
functional political staffers in Baghdad? And if we were able 
to maintain a full diplomatic corps there during the height of 
the Iraq war in the 2000s, why can we not do the same today? 
The report from this weekend suggests that this is a permanent 
decision, that State has made a decision that they are going to 
keep these low levels of staff for a time uncertain. And so 
given that report, I wondered if you could clarify some of that 
for the committee today.
    Ambassador Polaschik. Of course. First, I would like to 
maybe go back just a couple of months to early May where we 
faced a very serious, specific, credible threat stream against 
U.S. personnel in Iraq. And that threat stream has not 
diminished. It is still there. So that was the reason that 
Embassy Baghdad requested authorization to go to ordered 
departure status, and the Secretary of State approved that on 
May 14th.
    This is a temporary situation. Ordered departure is 
something that is done in 30-day increments. We constantly 
evaluate the situation, looking carefully at the threat 
information that we have and the personnel on the ground and to 
make sure that we have got the right fit. And the Secretary 
just renewed the ordered departure status on July 12 for 
another 30 days.
    I would prefer not to go into specific numbers of personnel 
that we have on the ground in this open setting, but I would be 
very, very happy to brief you later.
    I would note again, though, that this is just a temporary 
decision. We have not made any decisions to permanently 
withdraw staff. We are constantly evaluating the situation, and 
it is certainly our hope that we are able to have a maximum 
presence on the ground in order to achieve all of the important 
objectives that we have.
    Senator Murphy. Certainly without getting into a classified 
threat assessment, I think it is hard to suggest that the 
threat is higher today than it was during the height of the 
insurgency and the fighting in and around Baghdad. And so while 
I would never second guess the security decisions, I would hope 
that if there is a long-term decision made to have lower levels 
of staffing there, that we start to think about how to increase 
security so that we can return to some level of political 
functionality because if we do not, if we maintain a dozen or 
two dozen political staffers there, it is an invitation for 
ISIS to reemerge because we are not there helping the Iraqis do 
the hard lift of political reconciliation that ultimately 
protects our interests against the future rise of ISIS or a 
follow-on organization. And so I understand how sensitive this 
is because you are talking about the lives of American 
personnel there. But the risk of a long-term political 
withdrawal from Baghdad could, in the end, cost as many 
American lives as we are saving in the short run, and it is 
just something I hope the State Department is contemplating.
    Thank you, Mr. Chairman. I may have a few if we have a 
second round as well.
    Senator Romney. Thank you, Senator Murphy.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses. Good to be with you again.
    How would you describe the relationship between the United 
States and Iraq? Are we partners? Are we allies? Are we 
competitors? Are we adversaries? You do not have to pick from 
my labels, but how would you describe the relationship?
    Ambassador Polaschik. I would say that we are partners. And 
this Iraqi Government in particular has made it very clear that 
it is intent upon ensuring Iraq's sovereignty, its 
independence, its unified democratic status. So we are a 
partner and working with them.
    Senator Kaine. And the current government continues to want 
U.S. engagement as they pursue that strategy. Correct?
    Ambassador Polaschik. Absolutely. We are there at the 
invitation of the Iraqi Government.
    Senator Kaine. Mr. Mulroy, how would you describe the 
relationship?
    Mr. Mulroy. I completely agree, sir. It is a partnership, 
and I think they would actually say the same thing. Specific to 
the Government of Iraq, if you look at the president, Bahram 
Salih, he used to be the chairman of the American University in 
Saladin. And I think most of my colleagues have known him for 
10 to 15 years in the Department of Defense. The prime 
minister--very similar relationships. The speaker of the house, 
Halbusi--he worked very closely with us when he was a governor 
in Anbar, and many of us know him.
    So I think they talk to us pretty bluntly, and I think we 
know what they are saying when they are saying it. And I think 
that we both view this as a long-term partnership because we 
have been together so long. So it is more than just a label. It 
is actually real relationships that have proven effective in 
the fight against ISIS, for example, and hopefully will prove 
effective going forward as they become more and more sovereign 
and have the ability to push back.
    Senator Kaine. And there is no doubt, is there, as we sit 
in the room today that we would not consider Iraq an adversary 
or an enemy. Correct?
    Mr. Mulroy. Iran, sir?
    Senator Kaine. We would not consider Iraq an adversary of 
an enemy. Would we?
    Mr. Mulroy. No, sir.
    Senator Kaine. The reason I asked that is there are 
currently pending two authorizations for military force against 
Iraq. The 1991 authorization for use of military force by the 
United States against Iraq had no termination date, and so that 
is still a pending war authorization against the sovereign 
Government of Iraq. That was the first Gulf War. That was never 
repealed.
    There was a 2002 authorization for war against the 
sovereign nation of Iraq that was passed in October of 2002. It 
had no termination date. That is still pending.
    It strikes me as highly bizarre that we are sitting here at 
a hearing talking about our partner, the long-term partnership, 
going through the president and the prime minister and the 
speaker and their connections to the United States. And you are 
stating facts that I believe from my visits there as well as in 
my conversations with Iraqi officials. And yet we still have 
two unexpired war authorizations against Iraq.
    Senator Young and I have introduced a bill that would 
repeal the 1991 and the 2002 war authorizations to simply 
recognize that we are not enemies anymore. We are not 
adversaries. We are not seeking to, through military force, 
topple the Government of Iraq anymore. We are actually using 
our military assets to support the Government of Iraq.
    I hope my colleagues would agree that if we cannot agree on 
a lot of complicated things, when we have got the Trump 
administration witnesses sitting here looking us in the face 
and telling us we are partners with Iraq, why do we need two 
war authorizations with Iraq? I have been trying to get the 
administration to--their official position is we do not seek a 
change of any war authorization at this time. But they have 
given me no reason to suggest why we should continue to have 
war authorizations against Iraq.
    And I am deeply worried that if we pass war authorizations 
with no termination date and we leave them sort of floating out 
in space, these zombie war authorizations that can be used by 
any administration at any time to cook up a bootstrapped 
argument for some military misadventure, then we really are not 
doing the job that we should do.
    The legislation that I filed with Senator Young and others 
has been pending before this committee now for a number of 
months. I would hope that my colleagues would support the idea 
of bringing it up and repealing the war authorizations and 
sending the very clear message that we do not consider Iraq an 
enemy. We do not consider Iraq an adversary. We do not think 
they are going to turn into one tomorrow. If they did, we could 
pass a new authorization. But why would we leave war 
authorizations out there against them?
    On the Kurds, I want to talk to you about this. In my 
visits to Iraq, the situation, the relationship between Baghdad 
and Erbil is a complicated one and there is much history there. 
And I know it is the U.S.'s preference that Iraq be democratic 
and stable and united. There are Kurdish aspirations. This is 
not necessarily that every Kurd believes this. It is not a 
monolith, but there are Kurdish aspirations for independence. 
There are longstanding disagreements over allocation of oil 
revenues and payment for governmental services, et cetera.
    I am curious. Tell us a little bit about what you think is 
the kind of current state of play between the relatively new 
government in Baghdad and also a new governmental arrangement--
the last names are not different, but some of the individuals 
are different--in Kurdistan.
    Ambassador Polaschik. First, Senator, I would stress that a 
strong Kurdistan Regional Government within a unified and 
federal Iraq is essential to Iraq's long-term stability and the 
enduring defeat of ISIS. This is a top priority for us.
    So in the wake of the 2017 referendum for independence, we 
have been working very hard to try to promote reconciliation 
between the Kurds and the central authorities in Baghdad. And 
we have had some successes. Oil is now flowing through the 
Kirkuk pipeline. That is important. The central authorities are 
now paying the salaries of civil servants in the KRG. And we 
are working very effectively to promote greater security 
cooperation particularly in the seam line areas between the 
Kurdish Peshmerga and the Iraqi central authorities. So we 
still have a ways to go, but we feel that there is positive 
progress. And I would note, in fact, that the new KRG prime 
minister was just in Baghdad I believe either yesterday or 
today. So that is a very positive sign.
    Senator Kaine. Excellent.
    Mr. Mulroy, do you want to add to that?
    Mr. Mulroy. Yes, sir. So I would agree with everything that 
the Ambassador said. A one-Iraq policy I think is the best 
policy not just for the United States' interests but for Iraq 
and for the Iraqi Kurdistan region.
    I would say, albeit anecdotally, I have talked and I know 
several of the new generation of Iraqi Kurds, and they would 
highlight that during their struggles against Saddam Hussein, 
that that generation often relied on external forces. Sometimes 
it was Iran. The current generation's struggle against Saddam 
Hussein and after that against ISIS--they relied almost 
exclusively on the United States. So their affinity with the 
United States is very strong, and I think that we can talk to 
them more openly that way and explain, at least from our 
perspective, why we think a one-Iraq policy is the most 
effective for them, not just for the overall mission. And I 
think that many of them understand that.
    Senator Kaine. Great. Thank you very much. Appreciate it.
    Thanks, Mr. Chair.
    Senator Romney. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here. I am sorry that I missed 
your testimony, but I was in Iraq in April, and certainly what 
I have heard you say in terms of the new government, I would 
agree with. They were very supportive of the United States' 
partnership there and of the joint command that is operating 
there.
    One of the concerns that we heard when we were there is 
about the ISIS detainees that are still in Syria and the 
potential for that to become a growing problem for Iraq. Now, 
as we know, many of those detainees are Iraqis, but we have a 
number of foreign fighters who are being detained in Syria, and 
most of them are in the custody of the Syrian Democratic 
Forces.
    So I wonder, Ms. Polaschik, how many ISIS detainees do we 
know are currently in the custody of the central Government of 
Iraq or of the Kurdish Regional Government?
    Ambassador Polaschik. Senator, thank you for raising this 
issue. It is a serious problem that we spend a lot of time 
thinking about at the State Department.
    In terms of the exact numbers, I would have to take that 
question back and get back to you.

    [The information requested above was not available at time 
of print]

    But this is a global effort. We are engaging with all of 
our partners throughout the world to ask them to take home 
their foreign nationals.
    With respect to the situation in Iraq, we also recognize 
that there are capacity issues. There are rule of law issues. 
There are human rights issues. So we have an intense and 
ongoing dialogue with the Iraqi authorities to make sure that 
those Iraqi citizens who are returned to Iraq face a fair, 
transparent judicial process and that also the family members 
who are there, because we have large numbers of children, for 
example, who are in some of these detention facilities, that 
they have the psychosocial support that they need to ensure 
that they are reintegrated into society and do not turn to 
radicalization.
    Senator Shaheen. Absolutely. It was a very big concern. 
There was a camp at that time of, I think, about 70,000 
families and detainees that was very close to the Iraqi border, 
and they were quite concerned about what was going to happen to 
those folks.
    I saw that Italy recently repatriated the foreign fighter 
who was in Syria. Can you talk about what efforts we have 
underway with some of our Western allies to repatriate the 
foreign fighters who are from their countries?
    Ambassador Polaschik. The Counterterrorism Bureau in the 
State Department has the lead on that. So I think, with your 
permission, I would like to take that question back to make 
sure that we get you the most accurate information.
    Senator Shaheen. That would be very helpful. I am sure you 
are aware there is also language in the defense authorization 
bill that would create a coordinator to help work on the 
detainee issue because we have made very little progress.
    And I know that we have some folks who would like to see 
some of those terrorists brought back. James Foley was a 
constituent. His family was a constituent of mine. The family 
who was murdered by ISIS--there was a question about whether 
his murderers are in custody in Syria. And his family and the 
family of other Americans murdered are very interested in 
seeing them brought back to justice and tried in our civilian 
courts. So I hope that that will be a focus of the efforts with 
detainees.
    Let me go to another question because the other issue that 
was raised on our trip was the importance of the continued U.S. 
troop presence in northern Syria and the support for U.S. 
stabilization efforts in areas that are controlled by the 
Syrian Democratic Forces. I am concerned, as we have heard the 
administration talk about the need to draw down those forces, 
that we do not have any backup there. Can you talk about what 
the position is of the State Department and the Department of 
Defense in terms of trying to encourage and ensure that we have 
stabilization efforts in that northeastern region of Syria? I 
will ask you both that question.
    Ambassador Polaschik. Senator, perhaps I could address the 
stabilization issue and then ask Mr. Mulroy to discuss the 
troop issues.
    It is very clear that stabilization efforts need to 
continue. I think that is the painful lesson that we have all 
learned over these many years now of strife in the Middle East, 
that if those core issues are left unaddressed, there will 
still be problems.
    So the United States is still engaged. The administration 
has made a priority to have burden sharing so that it is not 
the United States alone which is funding all of these efforts. 
We have been very successful in securing funds from our Gulf 
partners, in particular Saudi Arab and the United Arab 
Emirates. Of course, our European partners are there as well. 
So the United States has residual funding from previous years 
that we are still using. But our partners are relying on U.S. 
experts then to make sure that the assistance is being 
channeled and useful in effective ways. We still have our START 
mission that is based in Turkey, and we also have our START 
forward team as well. So we are there. We are in the game, and 
the State Department feels very strongly that we need to 
continue these stabilization efforts in order to ensure that 
ISIS truly is defeated.
    Senator Shaheen. Mr. Mulroy.
    Mr. Mulroy. If I could start with the issue brought up in 
the first question, the SDF currently has over 2,000 foreign 
terrorist fighters in their custody from over 50 countries. And 
this is obviously a group with very limited resources who 
expends quite a bit of time, effort, and resources taking care 
of everybody else's problems. So from our perspective at the 
DOD, we are pushing all the time for our partners to take back 
their citizens. It is their responsibility.
    Specific to stabilization, the Strategic Assessment Review 
2018 puts State Department in the lead, USAID as the 
implementer, and the DOD provides support, security and 
logistics. And we do so in everything the Ambassador just 
referenced, and that includes in northern Iraq to the efforts 
that go on there by USAID.
    From our perspective, the long-term plan for protecting the 
religious minorities in these areas is to train local security 
forces as police to be there for the long term. The point being 
is locals need jobs. These jobs are obviously helpful to 
stabilize the situation. They will stay there in the long term, 
and we are going to train them more as police, less as 
soldiers, as that, for obvious reasons, is what provides long-
term security in the area. So as a concept, that is the effort 
we intend to pursue.
    Senator Shaheen. But you are talking about Iraq when you 
are saying that----
    Mr. Mulroy. I am talking about Iraq.
    Senator Shaheen. --not Syria.
    Mr. Mulroy. Iraq, yes, ma'am.
    Senator Shaheen. Can I ask another question, Mr. Chairman? 
Because that raises another issue that we heard when we were 
there and that is about the influence of the Iranian-backed 
militias and the effort to integrate the militias into the 
structure of the Iraqi Security Forces. I noticed that Prime 
Minister Mahdi announced on July 1st that all of Iraq's 
Iranian-backed militias would be more closely integrated.
    Can you talk about some of the challenges that exist there 
and what we are doing to support the Iraqis as they try and 
address those Iranian-backed militias because they have the 
potential to create a lot of mischief in Iraq?
    Ambassador Polaschik. From the political, diplomatic 
perspective, it is a huge step that the prime minister has 
taken by issuing this decree on July 1. And we are committed to 
working with Prime Minister al-Mahdi and his cabinet to make 
sure that they implement this quickly.
    As Mr. Mulroy had said in his earlier remarks, the PMF 
played a very important role in the defeat of ISIS, and there 
are good groups among them so it will be very important to 
integrate the good PMF elements fully into the Iraqi Security 
Forces.
    There are also undisciplined actors out there who continue 
to extort local populations, who are plotting very nefarious 
activities. The United States has been quite clear in its 
opposition to these groups. I would note that just in March of 
this year we designated Harakat al-Nujaba, one of the primary 
Iran-backed PMF groups that is engaged in all sorts of 
deplorable activities. So we will continue to exercise pressure 
on these groups to ensure that they are no longer able to pose 
a threat to Iraq or to U.S. interests in Iraq.
    Mr. Mulroy. Yes. I completely agree that the PMF is not a 
homogenous group. Many of them did play a really substantial 
role in the defeat of ISIS. So there is a popularity amongst 
the Iraqi people. Now many of them have turned to criminality 
and are essentially a scourge on the population. Others have 
been completely controlled by Iran. KH has already been 
designated and HAN is now designated. So what we need to do is 
be sophisticated in our approach to the PMF, assess them, find 
out which ones could be integrated into the Iraqi Security 
Forces and which ones could never be, and then isolate the 
latter and obviously embrace the former.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you.
    The ranking member has an additional question we are going 
to let him ask.
    I would just underscore, before he asks that question, the 
concern that I share with him that we need as many diplomatic 
personnel as possible in Iraq to encourage that government and 
to support that government in the enormous challenges that they 
have. I did hear from another source in the administration the 
belief that Iran has pulled back from their level of threat on 
our interests or our resources in the region. I would just 
encourage the administration to be as up to date as possible 
with all of its intelligence resources to make that assessment 
and to restore a full diplomatic presence as soon as possible.
    With that, let me turn to Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I am 
going to try to sneak two quick ones in here.
    Mr. Mulroy, you described the militias as sort of belonging 
to two categories, and Ambassador Polaschik referenced the 
same. There is the group that enjoys popular support in Iraq in 
part because of the good work they did against ISIS, and then 
there is the group that is directly aligned with Iran. And that 
is not how I understand it.
    I understand there to be a Venn diagram in which there are 
groups that have broad popular support and there are groups 
that have very close relationships with Iran, and those two 
circles overlap in big parts. And one of the concerns that I 
heard when we were there is that by forcing this choice with 
the designation of the IRGC as a terrorist organization, we are 
in fact pushing some groups that exist inside the overlap to 
Iran because those groups perceive the United States, again, to 
be a relatively short-term player and partner. Iran is going to 
be around forever. And so by sort of pushing this question in 
front of many of these militias that are popularly supported 
and have relationships with Iran, we are actually working 
against our interests by pushing more of these groups towards 
Iran. They are not making the choice to align with us.
    Would you disagree with that assessment?
    Ambassador Polaschik. I fully agree with your assessment 
that it is a little squishier, that there are overlapping 
circles. And it is an important question that the Iraqi 
Government is grappling with and that we are grappling with as 
well. What is the best way to encourage good behavior from 
groups that fall into that middle area? There are several PMF 
groups which now have political parties and they have members 
elected to the Council of Representatives. And so how could we 
encourage those groups to become good actors instead of bad 
actors?
    So this is an ongoing policy debate within the 
administration. It is something that we are grappling with, but 
the intent is to do everything possible that we can to 
strengthen Iraq's sovereignty and its capacity to withstand 
threats to its sovereignty both internal and external. So you 
have hit, I think, one of the hot button issues that we 
continue to deliberate and is very much on our minds.
    Senator Murphy. I am not speaking to either of you here. I 
think the administration has essentially already deliberated on 
this question and has made a decision with respect to the 
designation of the IRGC that makes all of your jobs much more 
difficult.
    Lastly, Mr. Chairman, if I could just ask one question on 
stabilization, to build on Senator Shaheen's question. I just 
have a hard time figuring out the math here. Again, this is a 
question of finite resources. But the estimate is that the 
rebuilding of places like west Mosul are in the $80 billion 
range when you look at all of the work that needs to be done 
inside that country. And yet, we are appropriating about $250 
million a year, and we have got commitments from other partners 
that get that number up to maybe about a billion dollars a 
year. I just do not know how that math works.
    If we are putting together a billion dollars, a quarter of 
that is our money which, by the way, represents about one-
quarter of 1 percent of the U.S. defense budget, how does Iraq 
put together the dollars to rebuild parts of that country which 
are literally rubble today? Because, again, if they do not 
rebuild, then it is part of the political impetus for ISIS to 
emerge. Is the rest of it all on them or is there hope that 
bigger numbers ride to the rescue from outside of the country?
    Ambassador Polaschik. There was the Iraq reconstruction 
pledging conference. Perhaps that name is not accurate, but it 
was early in 2018 where there were significant pledges from key 
Arab countries. From the United States' perspective, we have 
been very focused on immediate stabilization needs, getting the 
essential services back on, providing humanitarian assistance, 
working on justice and accountability, all of the measures that 
are required to allow people to come home.
    And yes, there are huge infrastructure needs that exist, 
but I think one way to address that would be to also push 
forward on the economic reform agenda because a lot of 
construction, writ large development can be done by the private 
sector if there is a better business environment. I mean, there 
is serious money that could be made in Iraq. It is a wealthy 
country in terms of its resources, in terms of its human 
capacity. So that is why we are also putting the emphasis on 
the regulatory reforms that will be required to create a more 
open, inviting business environment because Iraq is still a 
statist economy. This is a very heavy legacy from the Saddam 
Hussein era. So whatever we can do to transition the Iraqi 
economy away from that heavy statist focus to more a more open 
market approach I think will be better.
    Senator Murphy. Senator Romney noted they do not help 
themselves when they continue to reject offers from Western 
companies, Western energy companies to help them get a better 
return on their rate of investment in fossil fuels. So I 
appreciate that answer.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you so much to the individuals who 
have been witnesses today for providing your testimony, as well 
as your response to our questions. Thank you also for your 
service to our great country.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record.
    And so with thanks to the committee members, this hearing 
is now adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Hon. Joan Polaschik to Questions 
                  Submitted by Senator Robert Menendez

                             russia in iraq
    Russia continues to make significant investments into Iraq's energy 
sector, especially in Iraqi Kurdistan. I am particularly concerned by 
press reports that Rosneft has purchased 60 percent of the Kurdistan 
Regional Government's (KRG) oil export pipeline while also committing 
to build a gas export pipeline from Erbil to Turkey, in addition to 
exploration blocks and advance crude purchases.

    Question. What has motivated the KRG, a reliable U.S. partner in 
the counter-ISIS fight, to pursue these deals with Russia?

    Answer. The Kurdistan Regional Government (KRG) saw Russia and 
state-controlled Rosneft as a potential ally in its bid for 
independence due to historic ties between Iraqi Kurds and the former 
Soviet Union. The agreement was negotiated before the independence 
referendum, but was signed after it in October 2017.

    Question. What steps has the U.S. taken to discourage these deals 
and provide the KRG and the Iraqi government with alternatives to 
Russian energy deals? What has been the response from the KRG or Iraqi 
Government? What steps is the U.S. taking going forward?

    Answer. Because the Government of Iraq (GOI) views oil and gas 
deals negotiated outside its purview as illegal, the GOI has taken the 
KRG to court over the deal. While Iraqi courts hear legal arguments and 
Iraqi politicians continue negotiations, the United States has promoted 
U.S. energy companies in all of Iraq. The GOI is in negotiations with 
several U.S. companies to capture gas and improve oil and gas 
infrastructure.

    Question. What message have U.S. officials delivered to KRG or 
Iraqi Government officials regarding these deals? At what level have 
those messages been delivered?

    Answer. U.S. officials including our Ambassador to Iraq and the 
Secretary of Energy have raised the issue of Russian involvement in the 
KRG's energy sector with both GOI and KRG officials. The message has 
been consistent that Western companies can provide better services and 
that Russia does not have an interest in seeing Iraqi gas compete with 
Russian gas for European markets. Moreover, Russia's ownership of the 
oil pipeline creates dependence that does not benefit the KRG nor Iraq.
                      popular mobilization forces
    Question. On July 1st, Iraq's Prime Minister issued a decree 
attempting to more closely integrate the Popular Mobilizations Forces 
(PMFs) into the Iraqi Armed Forces. As you know, these militias, some 
of which are backed by Iran, contribute to Iraq's instability, 
especially in the northern regions: What continuing support, if any, 
does Iran provide to PMF units? What is your assessment of the PMF 
threat to Iraq's security?

    Answer. Iran and its Islamic Revolutionary Guard Corps (IRGC) 
continue to provide support to some, but not all, PMF units. This 
includes logistical, advisory, and material support as well as 
training. The actions of some PMF units such as Kata'ib Hizballah, 
Harakat al-Nujaba, and other Iran-backed groups are destabilizing and 
threaten Iraq's internal security. In contrast to Iran's efforts to 
undermine Iraq's stability, we remain committed to supporting Iraqi 
sovereignty.

    Question. What are the State Department and Department of Defense 
doing to help the Government of Iraq integrate these groups into the 
Ministry of Defense chain of command?

    Answer. One of the Government of Iraq's (GOI) primary challenges is 
reining in undisciplined Popular Mobilization Force (PMF) elements that 
operate outside of state control. The Prime Minister's recent decree 
ordering PMF units to de-politicize, remove checkpoints, and forego 
economic activities is a positive first step toward reform. The 
timeline by which PMF units are formally and fully integrated into the 
broader Iraqi security force architecture, as called for by the Prime 
Minister's decree, is for the GOI to decide. Prime Minister Adel Abd 
al-Mahdi continues to be steadfast in his public statements that the 
PMF must reform into a professional, disciplined, and apolitical 
security service, and the U.S. Government supports the GOI's efforts to 
achieve this goal.

    Question. How is this decree and its implementation different from 
a similar decree by former Prime Minister Haider Abadi that was meant 
to integrate the PMF into the Ministry of Defense but was not fully 
implemented?

    Answer. Former Prime Minister Haider Abadi's decree proclaimed that 
the PMF would have the same pay and benefits as their counterparts in 
the Ministry of Defense, and additionally subjected them to Iraq's 
military service laws and regulations. The decree did not address the 
future of the PMF's roles and responsibilities, and did little to 
reform undisciplined and Iranian-backed PMF units significantly. The 
decree issued July 1st by Prime Minister Adel Abd al-Mahdi is a more 
significant effort to bring all armed groups under the effective 
command and control of the Government of Iraq (GOI). This decree orders 
PMF offices closed, units be stripped of sectarian nomenclature, and 
that economic and political endeavors discontinue. While implementing 
PMF reform would be a challenge for any Iraqi Prime Minster, Prime 
Minister Abd al-Mahdi has demonstrated serious intent and we fully 
support his efforts to ensure effective GOI control of all armed groups 
in Iraq.
                         captured isis fighters
    According to the United Nations, some 55,000 suspected ISIS 
fighters and their families remain in detention in Iraq and Syria. 
Additionally, there are numerous reports coming out about overcrowding 
and horrific conditions in these detentions centers, specifically in 
the Ninewa region of Iraq, an area which is a key focus of this 
administration's religious minority work. Yet, neither the Government 
of Iraq, nor the United States seems to have a plan for this 
population.

    Question. What is the administration's long-term plan for 
addressing this population?

    Answer. The United States encourages the repatriation of suspected 
ISIS foreign terrorist fighters held in Syria so that they face justice 
at home, in accordance with domestic and international law. The 
Government of Iraq (GOI) is working to bring back its citizens from 
Syria, and has reached an agreement with the Syrian Democratic Forces 
(SDF) to repatriate Iraqi ISIS fighters detained in Syria and to 
facilitate the safe and voluntary return of displaced Iraqis currently 
in Syria. The repatriation of Iraqi ISIS fighters has already begun. 
The GOI has been insistent that all those who fought for ISIS and 
brought damage and harm to the Iraqi people need to be held responsible 
for their crimes. We fully support Iraq's efforts to repatriate its 
citizens and to hold ISIS fighters accountable for their crimes.

    Question. How is the United States engaging in judicial process and 
reform at the national and local levels in Iraq?

    Answer. The United States is supporting UNITAD's efforts to 
collect, preserve, and store evidence of ISIS atrocities that may 
amount to war crimes, crimes against humanity, and genocide for use in 
prosecutions. The United States has made it clear that the Government 
of Iraq's prosecution of ISIS suspects should be fair and subscribe to 
due process norms, so as not to engender feelings of arbitrary 
persecution that can drive cycles of radicalization. The Department has 
provided support to Iraq's justice system through the International 
Criminal Investigative Training Assistance Program (ICITAP), among 
others, which works with foreign governments to develop professional 
and transparent law enforcement institutions that protect human rights, 
combat corruption, and reduce the threat of transnational crime and 
terrorism.

    Question. How is the United States working with other countries on 
accepting returned ISIS fighters?

    Answer. The State Department is engaging countries to urge that 
they take responsibility for their foreign terrorist fighter (FTF) 
citizens in Syria by repatriating and prosecuting them for their 
crimes. This remains an urgent undertaking as our partner, the Syrian 
Democratic Forces, has custody of more than 2000 FTFs. This engagement 
is done both bilaterally and in multilateral fora. Repatriation has 
been a major theme in all Global Coalition meetings as well as the FTF 
Working Group, made up of almost half of the Global Coalition's 80 
members as well as observer states. The Secretary called for action at 
the Global Coalition Ministerial in February.
    The State Department's Counterterrorism (CT) Bureau seeks to 
enhance the capacity of our partners to manage threats posed by FTFs 
through technical assistance to law enforcement, corrections, and 
justice sector agencies and, by doing so, to enable those partners to 
repatriate and, where possible and appropriate, prosecute their FTF 
citizens. The CT Bureau also works to build partner nation capacity 
through initiatives to enhance rehabilitation and reintegration of 
repatriated FTFs and their families. Working through multilateral 
organizations such as the Global Counterterrorism Forum (GCTF), the 
Organization for Security and Cooperation in Europe (OSCE), the 
International Institute of Justice and the Rule of Law (IIJ), the 
Global Community Engagement and Resilience Fund (GCERF), Hedayah, and 
the aforementioned Coalition FTF working group, we helped develop and 
are now contributing to programs that help countries implement good 
practices for addressing the challenges posed by returning families of 
FTFs.

    Question. How is the United States engaging in judicial process and 
reform at the national and local levels in Iraq?

    Answer. The United States is supporting UNITAD's efforts to 
collect, preserve, and store evidence of ISIS atrocities that may 
amount to war crimes, crimes against humanity, and genocide for use in 
prosecutions. The United States has made it clear that the Government 
of Iraq's prosecution of ISIS suspects should be fair and subscribe to 
due process norms, so as not to engender feelings of arbitrary 
persecution that can drive cycles of radicalization. The Department has 
provided support to Iraq's justice system through the International 
Criminal Investigative Training Assistance Program (ICITAP), among 
others, which works with foreign governments to develop professional 
and transparent law enforcement institutions that protect human rights, 
combat corruption, and reduce the threat of transnational crime and 
terrorism.

    Question. What programs does the United States have in place, 
including those working with Iraq and other countries, to counter 
violent extremism?

    Answer. The Department has provided support to Iraq's justice 
system through the International Criminal Investigative Training 
Assistance Program (ICITAP), among others, which works with foreign 
governments to develop professional and transparent law enforcement 
institutions that protect human rights, combat corruption, and reduce 
the threat of transitional crime and terrorism. We support the 
implementation of effective psychosocial efforts, especially for 
children of ISIS foreign terrorist fighters who endured trauma from the 
violence they witnessed and suffered. We also support the reintegration 
of non-combatants into their communities, through which Iraqis can 
remove some of the radicalizing influences and make room in detention 
facilities for those convicted of serious offenses related to violent 
extremism. We also support inclusive governmental practices, which 
counter violent extremism by diminishing exclusion of various 
communities from engagement in political and economic life in Iraq.
                    government of iraq-krg relations
    Question. What are the issues that have improved?

    Answer. The KRG and Government of Iraq have made significant 
progress to improve relations since the appointment of Prime Minister 
Abd al-Mahdi. We have seen early indications that the new KRG 
government led by PM Masrour Barzani intends to build on that. Progress 
since last fall includes an agreement to resume the transportation and 
export of Kirkuk oil through a KRG-administered pipeline in the north. 
Another agreement harmonizes customs duties, facilitating the removal 
of internal GOI customs checkpoints along the internal boundary with 
the IKR.

    Question. What are the key outstanding issues that remain 
unresolved?

    Answer.Unresolved issues include disputed areas, oil shipments to 
the central government, and security coordination to prevent ISIS from 
exploiting weaknesses in national and regional security units.

    Question. How is the U.S. engaging to help resolve those 
differences?

    Answer. A strong KRG within a unified and federal Iraq is essential 
to Iraq's long-term stability and to the enduring defeat of ISIS. Thus, 
it remains in our interest to help Baghdad and Erbil resolve these 
outstanding differences. We will continue to encourage KRG and 
Government of Iraq officials, with whom we have strong relationships, 
to resolve their differences by identifying and accepting reasonable 
compromises.
               post-isis reconstruction and stabilization
    Question. What are the prospects for stabilization and 
reconstruction in areas of northern and western Iraq most damaged by 
the battle with the Islamic State [specifically]: How long will it take 
these areas to recover?

    Answer. Iraq's recovery from the devastation wrought by ISIS 
depends on many factors, including the support of its allies. The next 
several years will be critical as Iraq continues to implement security, 
economic, and governance reforms necessary to achieve long-term 
stability. The Department of State is working to shift from the 
provision of humanitarian and stabilization assistance, that helps 
restore services in areas liberated from ISIS and encourage internally 
displaced persons to return home, to a longer-term partnership on 
security, trade, and investment. Assistance to Iraq will remain 
essential in promoting U.S. goals for America's security and 
prosperity. Not only will security, economic, and governance assistance 
stabilize Iraq, it will also enable Iraq to be a stabilizing influence 
in the region.

    Question. How much money has the USG invested in Iraq's religious 
and ethnic minorities since the Vice President's announcement in 
October 2017?

    Answer. Since the Vice President's announcement in October 2017, 
the U.S. government has provided $340 million in funding to support 
religious and ethnic minorities in Iraq.

    Question. How much has the United States invested in minority 
populated areas relative to Mosul and Ramadi?

    Answer. Much of the $340 million in funding provided in support for 
religious and ethnic minorities focuses on the Ninewa Plain, Sinjar, 
and areas in northern Iraq to which Iraqis from those areas have been 
displaced. Programs in these provinces address critical needs, 
including: the provision of shelter, water, sanitation, hygiene, 
protection and psychosocial services; the restoration of core essential 
services by rehabilitating damaged infrastructure such as schools, 
clinics, hospitals, electric and water systems; support to local and 
faith-based civil society organizations with intimate knowledge of the 
communities affected by ISIS; legal assistance to Iraqis who suffered 
human rights abuses at the hands of ISIS; and enabling investment in 
the private sector to rehabilitate the economy in these areas. Many 
country-wide USG-supported programs also include activity in Anbar and 
Ninewa, including programs to clear explosive remnants of war, provide 
support to victims of violence and conflict, support the return of 
displaced populations, and promote economic recovery. USAID has 
committed $69 million specifically to support the revival of Mosul, the 
economic and education center of northern Iraq, through electricity, 
water, education, and business development projects. The Department of 
State and USAID have also committed to providing $100 million in 
additional funds to support the stabilization of Anbar province.

    Question. How is the United States prioritizing development and 
reconstruction funds for certain populations?

    Answer. The Department of State has prioritized support that 
addresses critical needs for health care, shelter, water, sanitation, 
hygiene, and protection services. These funds also support the 
restoration of core services in the three provinces most affected by 
ISIS--Anbar, Ninewa, and Salah al Din. Further programs will foster 
stability and reconciliation by strengthening citizen-responsive 
governance, security, democracy, and the rule of law. The Department 
will support efforts to provide assistance and political support to at-
risk minority communities, and to encourage governmental and civil 
society efforts to mediate disputes among Iraq's diverse ethnic and 
religious minority populations, particularly in areas liberated from 
ISIS in recent years.

    Question. What further investments [in stabilization and 
reconstruction] does the administration plan to make?

    Answer. The Department of State and USAID have committed to 
providing $100 million in additional FY 2018 funds to support the 
stabilization of Anbar province, one of the regions most affected by 
ISIS. These funds will support the provision of essential services in 
Anbar province and the return of internally displaced persons, and also 
will help reduce Anbar's vulnerability to another insurgency.
    The Department will continue to announce additional contributions 
as funds become available for obligation through the foreign assistance 
process.
                          diplomatic drawdown
    Question. What exactly is the plan for U.S. presence in Iraq?

    Answer. With Mission Iraq under ordered departure for the third 
month, we are assessing how best to staff the post in the long-term, 
amid continued heightened regional tensions. Our goal is to ensure that 
we have the resources to meet the President's objectives while at the 
same time protecting our people. We are currently in the midst of 
internal discussions on this issue and look forward to working with 
Congress once we have additional information.

    Question. How many personnel are currently in-country and where?

    Answer. Today there are a total 328 personnel under Chief of 
Mission security responsibility (excluding Locally Employed Staff) at 
the Baghdad Embassy Compound, the Baghdad Diplomatic Support Center, 
and Consulate General Erbil. There are another 3,169 USG contractors, 
located at the three sites above plus Union III, the headquarters for 
the Coalition Joint Task Force-Operation Inherent Resolve (CJTF-OIR). 
These numbers fluctuate daily as personnel depart on R&R and permanent 
change of station, and others enter Iraq to assume those emergency 
duties.

    Question. What are the impacts of reducing diplomatic presence in 
our diplomatic facilities?

    Answer. Despite reductions, the United States remains committed to 
our important bilateral relationship with Iraq and continues daily 
diplomatic engagement to counter external malign influence and to 
advance our many other interests in Iraq and the region. Ambassador 
Tueller leads a strong team of some our best and most effective 
diplomatic professionals at our Embassy in Baghdad.

    Question. What do you assess to be primary threats to U.S. 
personnel and facilities in Iraq?

    Answer. The undisciplined Iran-aligned Popular Mobilization Forces 
(PMF) and ISIS are the principle threats to U.S. interests in Iraq. The 
threat of undisciplined PMF units has grown in recent months in 
response to the United States increasing its maximum pressure campaign 
against Iran.
    Despite ISIS's loss of territory, it has transitioned into using 
traditional terrorist tactics in Iraq. ISIS's targets are primarily 
Iraqi Security Forces (ISF), including the PMF, and Sunni tribal 
groups. ISIS continues to conduct attacks against these entities in an 
effort to create a more permissive operating environment for itself in 
Iraq.
                     u.s. presence in southern iraq
    Question. Along with many of my colleagues, I continue to be 
concerned about the closure of our consulate in Basra. Additionally, 
the administration has just notified $10 million in assistance for a 
Basra water project: Please describe the administration's plans for 
engagement with the southern governorates of Iraq and how you plan to 
monitor the $10 million, in the wake of the temporary closure of the 
U.S. Consulate in Basra.

    What effects has the U.S. withdrawal had on U.S. interlocutors 
among the local Iraqi populations in the south?

    Answer. The United States remains deeply engaged in Basrah and the 
southern provinces. The Embassy has established a Southern Iraq Affairs 
Unit that maintains frequent contact with a wide range of government 
and private sector contacts in southern Iraq. U.S. outreach and 
programming focused on southern Iraq continues to be implemented with 
the approval of national and local government officials and is being 
administered effectively by Baghdad-based personnel. The Department's 
efforts are aimed at helping the Government of Iraq to improve its 
delivery of essential basic services, build professional security 
forces loyal to the Iraqi state, develop durable democratic 
institutions, and promote adherence to the rule of law. These efforts 
are a stark contrast to Iran's destructive agenda to undermine the 
Iraqi government and propagate sectarianism.
      designation of the irgc as a foreign terrorist organization
    Question. How has the designation of the IRGC as an FTO impacted 
U.S. engagement with Iraqi interlocutors in Iraq, both diplomats and 
military?

    Answer. The IRGC designation has not hindered the USG's ability to 
interact with its Iraqi partners. The United States continues to 
monitor the situation closely, warning Iraqis of the consequences of 
providing support to designated terrorist groups like the IRGC.

    Question. Please describe diplomatic outreach to Iraqi officials to 
describe the designation.

    Answer. Secretary Pompeo designated the Islamic Revolutionary Guard 
Corps (IRGC) as a Foreign Terrorist Organization under Section 219 of 
the Immigration and Nationality Act. Embassy Baghdad and Department 
officials in the United States briefed and continue to engage a wide 
range of Iraqi officials on the designations and their implications for 
Iraq. Although Iraqis may be concerned that the escalating tensions 
between the United States and Iran will affect Iraq, we continue to 
assure them that the United States is not seeking conflict with Iran 
and we do not view Iraq as an arena for escalation.

    Question. Please describe how this determination was made, and what 
considerations were made regarding U.S. presence and operations in 
Iraq.

    Answer. On April 15, 2019, the State Department designated the 
Islamic Revolutionary Guard Corps (IRGC) as a Foreign Terrorist 
Organization under Section 219 of the Immigration and Nationality Act. 
The Secretary of State made this decision after consulting with the 
Departments of Justice and the Treasury, as required by statute, and 
considering input from other relevant agencies.
    This designation demonstrates the United States' unwavering 
commitment to a sovereign, independent Iraq free from malign external 
influence. An important part of that effort is isolating the actors 
that conduct the Iranian regime's malign behavior and deterring others 
from supporting them.
                             northern iraq
    Question. What is your assessment of security in Erbil?

    Answer. U.S. interests throughout Iraq are at high risk for 
violence, crime, kidnapping, and terrorism. Kurdish security forces are 
highly responsive to these threats, including that of ISIS, which 
remains a significant threat in northern Iraq. The United States has 
adequate resources to conduct its core diplomatic tasks despite these 
challenges, and we continue to work with both our Government of Iraq 
and Kurdistan Regional Government partners to advance U.S. interests 
and promote the security of American citizens.

    Question. Please describe any discussions with the government of 
Turkey regarding security in and around Erbil and Northern Iraq.

    Answer. Whether through Embassy Ankara's engagements with Turkish 
interlocutors or as part of high-level U.S.-Turkey meetings in 
Washington and Ankara, the United States regularly engages with the 
Government of Turkey regarding security in and around Erbil and 
Northern Iraq, particularly as it relates to the presence of the 
Kurdistan Workers Party (PKK), a U.S. designated foreign terrorist 
organization.
    When engaging regarding security in Northern Iraq, the United 
States consistently urges the Government of Turkey to coordinate with 
the Government of Iraq and to act consistent with Iraqi sovereignty.

    Question. Please describe your assessment of the PKK's operational 
capacity in Iraq.

    Answer. The United States takes the threat of the PKK seriously and 
works closely with the governments of Iraq and Turkey to bolster the 
security of our partners. The group maintains the ability to plan and 
conduct terrorist attacks both in Iraq and elsewhere from their bases 
in the Qandil Mountains of northern Iraq.
                               __________

              Responses of Michael P. Mulroy to Questions 
                  Submitted by Senator Robert Menendez

    Question. On July 1st, Iraq's Prime Minister issued a decree 
attempting to more closely integrate the Popular Mobilizations Forces 
(PMFs) into the Iraqi Armed Forces. As you know, these militias, some 
of which are backed by Iran, contribute to Iraq's instability, 
especially in the northern regions. a) What continuing support, if any, 
does Iran provide to PMF units? What is your assessment of the PMF 
threat to Iraq's security? b) What are the State Department and 
Department of Defense doing to help the Government of Iraq integrate 
these groups into the Ministry of Defense chain of command? c) How is 
this decree and its implementation different from a similar decree by 
former Prime Minister Haider Abadi that was meant to integrate the PMF 
into the Ministry of Defense but was not fully implemented?

    Answer. Iran has historically provided arms, training, and advising 
to its preferred elements of the Popular Mobilization Forces (PMF), and 
Iran maintains continuing relationships with those groups. Although 
many PMF units made great sacrifices to liberate Iraqi territories from 
ISIS, undisciplined elements of the PMF now exploit liberated 
populations and contribute to instability that could aid ISIS in its 
attempts to resurge. Changing the structure of the PMF or integrating 
PMF units into the Ministry of Defense chain of command is an Iraqi 
decision. The Department of Defense is prepared to assist and encourage 
our Iraqi partners in reforming their security institutions. The recent 
decree on the PMF from Prime Minister Abd-al-Mahdi reiterates and 
reinforces many of the same themes from former Prime Minister Abadi's 
PMF decree. The effectiveness of this decree will ultimately depend on 
implementation. We have seen some promising signs in recent weeks with 
some significant PMF units agreeing to comply, but much work remains to 
be done in fully implementing the decree.

    Question. According to the United Nations, some 55,000 suspected 
ISIS fighters and their families remain in detention in Iraq and Syria. 
Additionally, there are numerous reports coming out about overcrowding 
and horrific conditions in these detentions centers, specifically in 
the Ninewa region of Iraq, an area which is a key focus of this 
administration's religious minority work. Yet, neither the Government 
of Iraq, nor the United States seems to have a plan for this 
population. a) What is the administration's long-term plan for 
addressing this population? b) How is the United States engaging with 
Iraq on suspected ISIS fighters, both Iraqi and non-Iraqi? c) How is 
the United States working with other countries on accepting returned 
ISIS fighters? d) How is the United States engaging in judicial process 
and reform at the national and local levels in Iraq? e) What programs 
does the United States have in place, including those working with Iraq 
and other countries, to counter violent extremism?

    Answer. Returning captured ISIS fighters currently held by the 
Syrian Democratic Forces (SDF) in Syria, including foreign terrorist 
fighters, to their countries of origin is the best way to keep them 
from returning to the battlefield, re-engaging in terrorism, or further 
radicalization. In this way, repatriation and prosecution of ISIS 
fighters by countries of origin are in the best interest of regional 
and international security. The Department of Defense supports the 
Department of State's efforts to encourage countries to take back their 
foreign terrorist fighters and their families, to address the 
challenges posed by these populations, and to counter violent extremism 
more broadly. Iraqi citizens make up a significant portion of the ISIS 
fighters currently detained by the SDF in Syria. The Government of Iraq 
(GoI) has announced that it plans to repatriate Iraqi citizens from 
Syria, and we understand the GoI and SDF are working together to start 
that process. The United States is not involved in this arrangement. We 
commend the GoI for taking this step to return suspected Iraqi ISIS 
fighters and their families from Syria and for holding members of ISIS 
accountable. The GoI has been consistent that all those who fought for 
ISIS, including foreign terrorist fighters, and brought damage and harm 
to the Iraqi people, need to be held responsible for their crimes. We 
encourage the SDF, the GoI, and all countries of origin to detain these 
individuals humanely and prosecute them fairly, in accordance with 
their domestic and international obligations.

    Question. How has the designation of the IRGC as an FTO impacted 
U.S. engagement with Iraqi interlocutors in Iraq, both diplomats and 
military?

    Answer. The Department of Defense maintains a close partnership and 
robust engagement with the Iraqi Security Forces. That partnership has 
not changed since the designation of the IRGC as a foreign terrorist 
organization (FTO). We would defer to the Department of State on 
broader diplomatic engagements with the GoI.

    Question. Please describe diplomatic outreach to Iraqi officials to 
describe the designation.

    Answer. We would defer to the Department of State on diplomatic 
outreach to Iraqi officials with respect to the IRGC FTO designation.

    Question. Please describe how this determination was made, and what 
considerations were made regarding U.S. presence and operations in 
Iraq.

    Answer. The Secretary of State made this decision after consulting 
with the Departments of Justice and the Treasury, as required by 
statute, and considering input from other relevant agencies, including 
from the Department of Defense.

    Question. What is your assessment of security in Erbil?

    Answer. Thanks to close collaboration between Coalition and Iraqi 
Kurdish security forces, the Iraqi Kurdistan Region (IKR) has enjoyed 
relative security since the fall of ISIS's physical caliphate. The 
recent Erbil restaurant shooting, which resulted in the tragic death of 
a Turkish diplomat, was a rare example of political violence in the 
IKR's capital city. We defer to the State Department for more details.

    Question. Please describe any discussions with the government of 
Turkey regarding security in and around Erbil and Northern Iraq.

    Answer. We defer to the Department of State on any such 
negotiations.

    Question. Please describe your assessment of the PKK's operational 
capacity in Iraq.

    Answer. The PKK is based out of the Qandil Mountains in northern 
Iraq, from where it mounts smallscale attacks in Northern Iraq and 
Turkey. The PKK's operational capacity remains a threat to our NATO 
Ally Turkey and our partner Iraq. We defer to the intelligence 
community for a specific and current assessment of the PKK's 
operational capacity.
                               __________

             Responses of Hon. Joan Polaschik to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Why didn't the Department request Foreign Military 
Financing (FMF) assistance for Iraq for FY2020? Do you expect that the 
Department will obligate FY 2019 FMF funds for Iraq?

    Answer. We remain committed to helping the Iraqi government defend 
itself against terrorist threats, counter malign Iranian influence, and 
promote internal stability. The Iraqi Security Forces (ISF) will 
receive robust support from the U.S. government and other coalition 
partners in FY 2020, and are increasingly able to sustain the costs FMF 
has covered in the past.
    FY 2019 FMF funding will continue to support the procurement of 
defense articles, technical support, and training to build the long-
term capacity of Iraq's defense institutions, interoperability within 
the ISF, and increase professionalization. Funds may also be used to 
meet critically needed counterterrorism needs and support Kurdish 
forces organized under the Kurdistan Regional Government.

    Question. What are the State Department's views on the future of 
the Office of Security Cooperation at the U.S. embassy in Baghdad? How 
does the State Department envision the security assistance mission in 
Iraq evolving and what resources and personnel will the State 
Department contribute to the mission of security partnership with Iraq?

    Answer. The State Department views the Office of Security 
Cooperation in Iraq (OSC-I) as an essential part of our security 
relationship in Iraq. During the peak of the military campaign against 
ISIS, OSC-I ensured materials and resources were provided to the Iraqi 
Security Forces (ISF). As the campaign wore on and the Department of 
Defense was able to fulfill the immediate needs of the ISF, OSC-I 
focused on long term institution building and other tasks essential to 
the enduring defeat of ISIS. We anticipate OSCI-I continuing to be of 
broad benefit to Iraqi security over the long term.

    Question. What is the status of U.S. outreach and programming in 
southern Iraq in light of the 2018 decision to withdraw U.S. personnel 
from the U.S. Consulate facility in Basra? What are the implications of 
reduced U.S. presence and activity for U.S. interests and the security 
of international businesses?

    Answer. The United States remains deeply engaged in Basrah. The 
Embassy has established a Southern Iraq Affairs Unit that maintains 
frequent contact with a wide range of government and private sector 
contacts in southern Iraq. U.S. outreach and programming focused on 
southern Iraq continues to be implemented with the approval of national 
and local government officials and are being administered effectively 
by Baghdad-based personnel. The Department's efforts are aimed at 
helping the Government of Iraq to improve its delivery of essential 
basic services, build professional security forces loyal to the Iraqi 
state, develop durable democratic institutions, and promote adherence 
to the rule of law. These efforts are a stark contrast to Iran's 
destructive agenda to undermine the Iraqi government and propagate 
sectarianism.

    Question. What support is the United States providing to help the 
Iraqi government improve electricity and water service reliability and 
quality in south-central and southern Iraq?

    Answer. The United States has been clear with Iraq's national and 
local government officials that they must take responsibility for 
service delivery to Iraqi citizens. That said, U.S. efforts to assist 
Iraq continue. On electricity, the United States is urging Iraq to 
attract foreign investment that would expand its domestic electricity 
production while supporting Iraqi-led efforts to enhance regional 
energy cooperation. On water, the State Department is providing 
training for Ministry of Water Resources personnel on water use 
optimization and, through USAID, improved prioritization of 
infrastructure repairs.

    Question. Do you expect Iran-linked elements of the Popular 
Mobilization Forces to comply with the various de-politicization, 
demobilization, and disarmament demands of Prime Minister Abd al 
Mahdi's recent decree? What are the implications for his government if 
these groups refuse to comply?

    Answer. The Prime Minister's decree seeks to bring all Popular 
Mobilization Forces (PMF) units under firm state control. We view the 
decree as a positive step toward a secure and sovereign Iraq. 
Enforcement will be a significant challenge, but we continue to support 
the Government of Iraq's efforts to bring all armed groups under 
effective command and control.
    We believe the Iraqi people are tired of the criminal and 
destabilizing actions of some Iran-backed PMF and are broadly 
supportive of the Government of Iraq's efforts to address destabilizing 
PMF behavior. This political reality will incentivize PMF compliance 
with the decree and isolate groups that fail to adhere to the Prime 
Minister's orders.

    Question. To what extent have those elements of the Popular 
Mobilization Forces that have integrated with the Iraqi Security Forces 
to date maintained their individual unit structures versus their 
personnel being absorbed and distributed into other units?

    Answer. The Government of Iraq is working to establish control over 
all armed groups in the country. Reining in undisciplined Popular 
Mobilization Forces (PMF) operating outside of state control is a 
particularly daunting challenge that Iraq is now addressing. We believe 
the Prime Minister's recent decree ordering PMF units to de-politicize, 
remove checkpoints, and refrain from money-generating activity is a 
positive first step. The timeline by which PMF units are formally 
integrated into the Iraqi Security Forces as called for by the Prime 
Minister's decree is for the Government of Iraq to decide. Prime 
Minister Adel Abd al-Mahdi continues to be steadfast in his public 
statements that the Popular Mobilization Forces must reform into a 
professional, disciplined, and apolitical security service, and we 
support the Government of Iraq's efforts to achieve this goal.

    Question. What are the administration's plans for providing 
additional support for stabilization and reconstruction in areas of 
northern and western Iraq most damaged by the battle with the Islamic 
State? When will the administration announce additional contributions 
from funds already appropriated by Congress for this purpose in FY 2018 
and FY 2019?

    Answer. To date, the Department of State and USAID have provided 
$365 million in funds to the UNDP's Funding Facility for Stabilization 
for stabilization assistance and $340 million for the recovery of 
religious and ethnic minority populations in areas most damaged by the 
Islamic State in northern and western Iraq. The Department of State and 
USAID have committed to providing $100 million in additional FY 2018 
funds to support the stabilization of Anbar province, one of the 
regions most affected by ISIS. These funds will support the provision 
of essential services in Anbar province, the return of internally 
displaced persons, and will help reduce Anbar's vulnerability to 
another insurgency.
    USAID will also program at least an additional $30 million into 
programs supporting the recovery of communities in the Ninewa Plain and 
western Ninewa, as well as supporting communities displaced from those 
areas to other parts of northern Iraq, whose populations are 
predominantly religious and ethnic minorities targeted for genocide by 
ISIS.
    The Department will continue to announce additional contributions 
as funds become available for obligation through the foreign assistance 
process.

    Question. Now that the KRG has resolved its leadership selection 
process, what are the prospects for the relationship between the 
Kurdistan Region and the rest of Iraq? What are the key outstanding 
issues of difference between the national government and the KRG?

    Answer. The KRG and Government of Iraq have made important progress 
to improve relations since the appointment of Prime Minister Abd al-
Mahdi, and we have seen early indications that the new KRG government 
led by PM Masrour Barzani intends to build on that. Progress since last 
fall includes an agreement to resume the transportation and export of 
Kirkuk oil through a KRG-administered pipeline in the north, and 
another agreement to harmonize customs duties, facilitating the removal 
of internal GOI customs checkpoints along the internal boundary with 
the Iraqi Kurdistan Region. Unresolved issues include disputed areas, 
oil shipments to the central government, and security coordination to 
prevent ISIS from exploiting the seams between national and regional 
security units.

    Question. What, if anything, can and should the United States do to 
help resolve these differences?

    Answer. A strong KRG within a unified and federal Iraq is essential 
to Iraq's long-term stability and to the enduring defeat of ISIS. Thus, 
it remains in our interest to help Baghdad and Erbil resolve these 
outstanding differences. We will continue to encourage KRG and 
Government of Iraq officials, with whom we have strong relationships, 
to resolve their differences by identifying and accepting reasonable 
compromises.

    Question. In late 2017, Vice President Pence announced that the 
Trump administration would hold up funding pledged to U.N. 
reconstruction activities in Iraq, instead channeling funds directly to 
Christian communities in the north of the country. A recent article in 
The Washington Post noted that: `` . . . for Iraq's Sunni Muslims, who 
bore the brunt of the Islamic State occupation but have received little 
reconstruction help from the United States, the miserable conditions 
could seed a new round of militancy.'' One of the major advantages of 
working with the U.N. in these types of situations is that it delivers 
humanitarian and development assistance in an impartial and non-
discriminatory manner on the basis of greatest need: Can you address 
these concerns?

    Answer. Since FY 2014, the U.S. government has provided more than 
$2.3 billion in humanitarian assistance for the Iraq response in the 
region, including for IDPs in Iraq. U.S. government humanitarian aid is 
provided through the U.N. and other international and non-governmental 
humanitarian organizations. The U.N., in coordination with the 
Government of Iraq and Kurdistan Regional Government, is leading the 
humanitarian response in Iraq. We provide humanitarian assistance 
strictly on the basis of need, without consideration of religion or 
ethnicity.
    Since FY 2014, we have also committed $358 million in stabilization 
assistance that is being implemented through UNDP's Funding Facility 
for Stabilization to help stabilize areas of Iraq liberated from ISIS. 
On April 14, 2019, we announced a $100 million contribution to UNDP in 
support of stabilization work in Anbar Province, which has a majority-
Sunni population.

    Question. Will the administration commit to working with the U.N. 
to address the humanitarian and development needs of all of Iraq's 
citizens, including religious minorities?

    Answer. Yes. Our support for minority communities is not at the 
exclusion of support for other Iraqi communities who are also 
recovering from the destruction of ISIS. For example, on April 14, 
2019, we announced a $100 million contribution to UNDP in support of 
stabilization work in Anbar Province, which has a majority-Sunni 
population.

    Question. Since 2003, a U.N. political mission (the U.N. Assistance 
Mission in Iraq, or UNAMI) has been on the ground supporting 
international efforts to stabilize Iraq. The U.S. has long been a key 
supporter of UNAMI, repeatedly supporting the reauthorization of its 
mandate by the U.N. Security Council over the years, including most 
recently this May. Moving forward, will the administration continue to 
coordinate its efforts in Iraq with UNAMI?

    Answer. Yes. UNAMI significantly contributes to U.S. policy goals 
of a sovereign, stable, and prosperous Iraq that is free from foreign 
interference and capable of disrupting ISIS and other terrorist 
networks. Following the territorial defeat of ISIS, UNAMI is 
coordinating with the Iraqi government on reconstruction, recovery, and 
stabilization efforts. The Mission enjoys strong support among Iraqi 
political and religious elites, who view UNAMI as a neutral broker and 
often consult with UNAMI leadership in efforts to break political 
impasses. UNAMI's recent mandate renewal in May 2019 focuses on 
progress related to corruption, stabilization, regional integration 
with neighboring countries, reining in undisciplined armed groups, and 
internally displaced persons.

    Question. The U.S. strongly supported adoption of the Security 
Council resolution authorizing UNITAD at the time; does it still find 
value in these types of activities?

    Answer. Yes. The United States strongly supports UNITAD's work to 
collect, preserve, and store evidence of war crimes, crimes against 
humanity, and genocide committed by ISIS in Iraq. Iraqis, including 
religious and ethnic minorities, suffered unspeakable atrocities under 
the genocidal rule of ISIS; these crimes cannot go unpunished or 
undocumented. To this end, the United States has contributed $2 million 
to UNITAD to begin exhumations of mass graves in the Sinjar region of 
Northern Iraq, historic home to the Yezidi people.

    Question. How is the U.S. working with UNITAD to support the 
collection and preservation of evidence, while at the same time 
impressing on Iraqi authorities the need to ensure that trials of 
terrorism suspects meet international human rights standards?

    Answer. The United States has contributed $2 million to UNITAD for 
the exhumation of mass graves in the Sinjar region of Northern Iraq, 
historic home to the Yezidi people, in order to collect, preserve, and 
store evidence of ISIS atrocities that may amount to war crimes, crimes 
against humanity, and genocide for use in prosecutions. This support 
builds on years of funding and support provided to the International 
Commission on Missing Persons in Iraq to lay the foundation for 
processing mass graves from decades of conflict in Iraq. The United 
States is urging other countries to repatriate suspected foreign 
terrorist fighters for prosecution in their countries of origin and 
supports the Government of Iraq's prosecution of ISIS suspects pursuant 
to its domestic laws. The United States has made it clear that this 
process should be fair and subscribe to due process norms, so as not to 
engender feelings of arbitrary persecution that can drive cycles of 
radicalization. The Department has provided support to Iraq through the 
International Criminal Investigative Training Assistance Program 
(ICITAP), among others, to develop and support institutions to 
investigate, prosecute, and defend against human rights abuses, 
criminal behavior, and other abuses of power within Iraq's security 
services.

    Question. The U.N. Children's Fund (UNICEF) is playing a critical 
role in efforts to address the ongoing acute needs of children in Iraq. 
For example, the agency is currently working to reopen nearly 2,000 
schools in arrears formerly controlled by ISIS, including in conflict 
affected arrears of Mosul. Nevertheless, the needs remain immense: 
according to UNICEF's team in Iraq, 2.6 million children are still 
either out of school or ``at risk of missing out on their education'' 
due to the disruptions caused by the conflict: What is the U.S. doing 
to support efforts by UNICEF and other organizations to restore 
educational opportunities for children in Iraq?
    Answer. We share your concerns about the disruption in education 
caused by the conflict against ISIS in Iraq and are working to ensure 
children have access to education. The U.S. government, through the 
State Department and the U.S. Agency for International Development, has 
provided more than $16 million in humanitarian assistance in Fiscal 
Years (FY) 2018 and 2019 to UNICEF's education, protection, and 
assistance activities for displaced and conflict-affected children in 
Iraq. In addition, in FY 2018, the State Department supported non-
governmental organizations (NGOs) working to rehabilitate schools, 
provide teacher training and learning materials, and assist students to 
re-enroll in formal education, among other activities. U.S. government 
assistance also focuses on meeting the needs of out-of-school children 
and of adolescent girls and boys who face heightened protection risks, 
as well as the needs of gender-based violence survivors.

                                  [all]
</pre></body></html>
